<html>
<title> - CONTINUING TO REFORM PROFESSIONAL BOXING</title>
<body><pre>[Senate Hearing 108-890]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-890

                CONTINUING TO REFORM PROFESSIONAL BOXING

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 5, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
96-083 PDF               WASHINGTON : 2006
________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 5, 2003.................................     1
Statement of Senator Dorgan......................................    28
Statement of Senator McCain......................................     1
    Prepared statement...........................................     3

                               Witnesses

Greenburg, Ross, President, HBO Sports...........................     6
Hauser, Thomas, Columnist and Author.............................     9
    Prepared statement...........................................    11
Hopkins, Bernard, Middleweight Champion..........................     4
    Prepared statement...........................................     5
Pannella, Patrick, Executive Director, Maryland State Athletic 
  Commission.....................................................    20
    Prepared statement...........................................    22
Sugar, Bert Randolph, Boxing Historian and Author................    13
    Prepared statement...........................................    15

 
                CONTINUING TO REFORM PROFESSIONAL BOXING

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. We will begin this hearing. I 
want to welcome the witnesses who are appearing before the 
Committee today and thank those who made special arrangements 
to be here. The purpose of this hearing is to examine the 
current state of professional boxing so this Committee can 
determine what steps should be taken to further reform this 
sport.
    Over the past 7 years, this Committee has been diligent in 
its efforts to address the problems that have plagued the sport 
of professional boxing. We have worked to enact two Federal 
boxing laws, the Professional Boxing Safety Act of 1996, and 
the Muhammad Ali Boxing Reform Act of 2000. These laws were 
intended to establish minimum uniform standards to improve the 
health and safety of boxers and to better protect them from the 
often coercive, exploitative, and unethical business practices 
of promoters, managers, and sanctioning organizations.
    While these laws have had a positive impact on professional 
boxing, the sport remains beset with a variety of problems, 
some beyond the scope of local regulation, so we find ourselves 
here again discussing many of the same problems surrounding 
professional boxing. Promoters continue to steal fighters from 
each other, sanctioning organizations make unmerited rating 
changes without offering adequate explanations, promoters 
refuse to pay fighters who have put their lives on the line, 
local boxing commissions fail to ensure the protection of 
boxers' health and safety, boxers are contractually and 
financially exploited, and the list continues.
    Nearly every week, my office receives a call from a parent 
whose child was killed in a match asking why proper medical or 
safety precautions were not taken by the local commission with 
jurisdiction, and I receive calls from boxers who have worked 
tirelessly to escape poverty, only to find themselves subject 
to the exploitation of the unscrupulous few who control the 
sport.
    In light of the ongoing problems that continue to exist 
within professional boxing, Senator Dorgan and I have 
introduced the Professional Boxing Amendments Act of 2003. The 
bill would strengthen existing Federal boxing law, and create a 
Federal regulatory entity to oversee the sport. This entity 
would be called The United States Boxing Administration, and 
would be headed by an administrator appointed by the President 
of the United States with the advice and consent of the Senate. 
A very similar proposal was reported unanimously by this 
Committee last September.
    There has been quite a bit of confusion among local 
commissions regarding the effect this bill would have on them. 
Let me be clear, the purpose of the USBA would not be to 
micromanage boxing by interfering with the daily operations of 
local boxing commissions. Instead, the USBA would work in 
consultation with local commissions and the USBA administrator 
would only exercise his or her authority should reasonable 
grounds exist for intervention.
    Let me just mention a couple of things for the record that 
are disturbing and saddening. On June 26, 2001, Beethavean 
Scottland was knocked down in the last seconds of a fight in 
New York City. He died from his injuries 6 days later. He was 
the fourth boxer since 1979 to die from injuries sustained in 
the ring in New York.
    The New York State Athletic Commission conducted an 
investigation to determine whether the fight should have been 
stopped earlier. Two rounds before Mr. Scottland was knocked 
unconscious, the ringside physician told the referee to not 
allow Mr. Scottland to suffer any more blows.
    On March 9, 2002, 42-year-old boxer Gregg Page was beaten 
into a coma during a fight in Kentucky against 24-year-old Dale 
Crowe. In violation of the Professional Boxing Safety Acts, no 
ambulance was present onsite, and the ringside physician used 
smelling salts to try to resuscitate Mr. Page. Smelling salts 
actually poison the brain when it is in desperate need of 
oxygen. Mr. Page underwent surgery to remove a blood clot from 
his brain. His brain injuries are most likely permanent.
    On April 27, 2002, it was reported that Joey Torres paid 
his opponent, Perry Williams, $200 to take a dive in a fight in 
Anaheim, California. Williams' second-round dive was so 
obviously faked, swindled fans rioted and attacked Torres.
    The list goes on. On July 22, the WBA lowered Mr. Johnson 
from his position as the top-rated WBA heavyweight challenger 
to fifth following his disqualification in a bout against Mr. 
John Ruiz. In the WBA's August 2002 ratings, Mr. Johnson was 
again lowered, this time from fifth to tenth. Both of these 
reclassifications were made reportedly without WBA providing an 
explanation for the change.
    In addition to lowering Mr. Johnson in its ratings, the WBA 
elevated three boxers, even though these boxers had not fought 
in the previous few months.
    The list goes on. On December 6, 2002, Christy Martin 
defeated Mia St. John in a Pay-Per-View event at the Silverdome 
in Michigan. The day before the fight, Martin voiced fears that 
her promoter would not pay her. Martin proceeded to fight and 
win, but her promoter has yet to pay her the 300,000-dollar 
purse.
    The IBF recently came under fire for its ranking of 
fighters. With the number 1 and 2 rankings vacant, Sharmba 
Mitchell had to fight Carlos Vilches for the number 1 ranking, 
while Arturo Gatti was given the number 1 ranking without 
fighting anybody.
    Despite the fact that the Indiana Boxing Commission and the 
WBC had agreed to the assignment of officials for the November 
bout between Forrest and Shane Mosely, the WBC made subsequent 
attempts to convince the Indiana commissioners to replace 
multiple judges for the fight with those from the WBC's 
appointed list of officials. In fact, it was reported that at 
one point, the WBC had threatened to withdraw the WBC's 
sanction of the fight if all of the officials for the Forrest 
Mosely bout were not from the WBC's appointed list. By 
interfering with the Indiana commission's assignment of 
officials, the WBC overstepped its role as a sanctioning 
organization and attempted to supersede the powers of a State's 
regulatory agencies.
    I would like to ask the first panel to come forward, Mr. 
Bernard Hopkins, who is the middleweight champion of the world, 
who is accompanied by his attorney, Arnold Joseph, and Mr. Ross 
Greenburg, who is the president of HBO Sports, Mr. Thomas 
Hauser, columnist and author, Mr. Bert Sugar, and Mr. Patrick 
Pannella.
    You are just in time, Bert.
    I am happy to see the witnesses. I look forward to hearing 
their statements, and I would like to just mention that I get 
better information if we just have, after the opening 
statements if we have a free flow of questions and answers in a 
more informal way. That, I think, that is the best way that I 
can get the record to be very clear, and I thank all of you for 
coming, and Mr. Hopkins, welcome, and thank you for being here.
    [The prepared statement of The Chairman follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona
    I welcome the accomplished witnesses who are appearing before the 
Committee today and thank those who made special arrangements to be 
here.
    The purpose of this hearing is to examine the current state of 
professional boxing so that this Committee can determine what further 
steps should be taken to further reform the sport.
    Over the past seven years, this Committee has been diligent in its 
efforts to address the problems that plague the sport of professional 
boxing. We have worked to enact two federal boxing laws, the 
Professional Boxing Safety Act of 1996, and the Muhammad Ali Boxing 
Reform Act of 2000. These laws were intended to establish minimum 
uniform standards to improve the health and safety of boxers, and to 
better protect them from the often coercive, exploitative, and 
unethical business practices of promoters, managers, and sanctioning 
organizations. While these laws have had a positive impact on 
professional boxing, the sport remains beset with a variety of 
problems, some beyond the scope of local regulation.
    So we find ourselves here again discussing many of the same 
problems surrounding professional boxing. Promoters continue to steal 
fighters from each other, sanctioning organizations make unmerited 
ratings changes without offering adequate explanations, promoters 
refuse to pay fighters who have put their lives on the line, local 
boxing commissions fail to ensure the protection of boxers' health and 
safety, boxers are contractually and financially exploited, and the 
list continues. Nearly every week, my office receives a call from a 
parent who's child was killed in a match asking why proper medical or 
safety precautions were not taken by the local commission with 
jurisdiction, and I receive calls from boxers who have worked 
tirelessly to escape poverty, only to find themselves subject to the 
exploitation of the unscrupulous few who control the sport.
    In light of the ongoing problems that continue to exist within 
professional boxing, Senator Dorgan and I have introduced the 
Professional Boxing Amendments Act of 2003. The bill would strengthen 
existing federal boxing law, and create a federal regulatory entity to 
oversee the sport. This entity, which would be called the United States 
Boxing Administration (USBA), would be headed by an Administrator 
appointed by the President with the advice and consent of the Senate. A 
very similar proposal was reported unanimously by this Committee last 
September.
    There has been quite a bit of confusion among local commissions 
regarding the effect that this bill would have on them. Let me be 
clear. The purpose of the USBA would not be to micro-manage boxing by 
interfering with the daily operations of local boxing commissions. 
Instead, the USBA would work in consultation with local commissions, 
and the USBA Administrator would only exercise his/her authority should 
reasonable grounds exist for intervention.
    I look forward to hearing the views of our witnesses regarding this 
legislative proposal and receiving their comments on how existing 
federal boxing law can be strengthened.

      STATEMENT OF BERNARD HOPKINS, MIDDLEWEIGHT CHAMPION

    Mr. Hopkins. Thank you, Senator, in saying that. I would 
just like to read a short statement, and then I will answer 
questions.
    Senator McCain, Members of the Committee, thank you for 
giving me the opportunity to testify before you on an issue of 
vital importance to me and over 1,000 other men and women who 
put their lives on the line on a daily basis for others' 
entertainment. I am currently preparing to participate in my 
16th title defense. However, I have broken camp to be here, 
because I take this proposed legislation seriously, and I want 
to do all that I can to help make legitimate boxing reform a 
reality.
    As long as anyone can remember, gladiators have met in 
arenas throughout the world to engage in battle for sport. I 
rarely break camp for anything. I mean, my 16th defense, I am 
38 years old, and all the days I have, I would like to use them 
if possible, but this is so very, very important. I spoke in 
1999, Senator, as you probably know. Thanks for the letter I 
received from you years ago thanking me for showing up when 
other fighters, for some reason, could not.
    We desperately need help. I mean, I have a personal 
situation in my family where my nephew is promoted and managed 
by the same people--two different people, but still the same 
people, and I thought the Muhammad Ali bill was in effect, and 
so there are still a lot of problems and issues out there, and 
I am here to give any insight as the undisputed middleweight 
champion of the world. I have spoken before I was undisputed 
middleweight champion of the world. Why wouldn't I speak now? 
That is just my character.
    If anybody has any questions, I am free to answer them the 
best way I can, and before I exit this sport of boxing, for 15 
years as a professional, I have not started stuttering yet, but 
I do worry if I make a statement that does not sound right, if 
it is catching up, but I have been blessed, and I want others 
to come behind me to have things that were not in line for 
Bernard Hopkins to reap the benefit from it, because I think it 
is long overdue, and so I am here to give any insight to anyone 
now and in the future, Senator.
    [The prepared statement of Mr. Hopkins follows:]

      Prepared Statement of Bernard Hopkins, Middleweight Champion
    Senator McCain, Members of the Committee, thank you for giving me 
the opportunity to testify before you on an issue of vital importance 
to me and the over one thousand other men and women who put their lives 
on the line on a daily basis for others' entertainment. I am currently 
preparing to participate in my sixteenth title defense, however I have 
broken camp to be here because I take this proposed legislation 
seriously and I want to do all that I can to help make legitimate 
boxing reform a reality.
    For as far long as anyone can remember, gladiators have met in 
arenas throughout the world to engage in battle for sport. Throughout 
those years two things have remained constant: The gladiators have 
given their all to the sport and some of those gladiators have been 
exploited by a small group of shameless individuals who have profited 
at the gladiators' expense. While most promoters, managers and agents 
are decent human beings who clearly have the best interest of the 
boxers in mind, there are a small minority who seek only personal gain 
at any cost. Your legislation recognizes this and it attempts to level 
the playing field. I applaud you for your efforts. I believe that S. 
2550 will help my brother and sister boxers and me to maintain our 
health, financial well being and dignity.
    As you know, I am the undisputed middleweight champ of the world. 
With that comes fame, money and notoriety. I am at the top of the game 
so to speak. I fight in huge arenas before thousands of people. My 
fights have been aired on HBO, Showtime and other networks so that 
millions more can watch. I am trained for those fights by the best 
trainers in the business and every part of my existence in those months 
leading up to a fight are controlled and regulated down to the most 
minute detail. It may sound great, but it is not. Not for me and less 
so for the vast majority of professional boxers who pound away at each 
other in cold, damp venues, before crowds of people who pay to see 
blood and knockouts. We are often crippled and sometimes killed during 
these events and in all cases are not fairly compensated for what we 
do. I am paid Millions while most are paid hundreds to risk our lives. 
Some do it because we love the sport. Most of us chose this profession 
because it was the only way for us to rise up from our impoverished 
backgrounds and get a small piece of the American Dream. We don't ask 
for your sympathy or pity, we just ask to be treated fairly. We seek a 
fair wage for our labor and to work in as safe an environment as 
possible. You and your predecessors have helped create the minimum 
wage, OSHA and other laws that help American workers, its time that you 
give us the same protection.
    While I am thankful for all that the fans have given me, I can not 
keep quiet when I see that things are not right. My stature has given 
me the opportunity to buck the system. I have been an outspoken 
advocate for change. I have rejected multi-million dollar paydays 
because the terms of the agreements presented to me were not fair. I 
have this luxury because I have food in my refrigerator and money 
invested in mutual funds. Other boxers cannot do this. They often are 
forced to borrow money to feed their families between bouts. It is for 
them that I have come to testify and hopefully you will keep them in 
mind when you go back to your offices to consider this legislation. The 
Muhammad Ali act was a great START. It attempted to do away with many 
of those shady backdoor deals between promoters and managers that 
forever doomed fighters to lives of indentured servitude. We were 
locked into long term, lopsided contracts that ensured only that we 
would have to fight until we were physically no longer able to do so. 
Our retirements were spent working as security guards, chauffeurs, or 
greeters at hotel/casinos. While the Act addressed some of those ills, 
it was not enough. It had no teeth and no practical impact on the 
average professional boxer. Promoters violated it with impunity because 
they knew that for the most part there would be no negative 
consequences.
    Though I do not have the statistics to support it, I believe that 
the average professional boxer lives at or below the poverty line. Only 
a handful of boxers receive over Twenty Thousand Dollars per year in 
purses. They live to fight and fight to live. They fight at the 
promoters' whims and therefore do not have the luxury to reject purse 
amounts, and exclusive promoter/manager agreements, when the agreements 
violate the Act. Likewise, they do not have the resources and 
information necessary to prosecute claims against promoters and 
managers for violations of the Act.
    Creation of the USBA will help. It will provide the uniformity and 
fairness that boxing so desperately needs. The sanctioning 
organizations need to be forced to come up with clear, logical and fair 
ways to rank boxers. I need to know the extent of the relationship 
between the sanctioning organizations and the promoters of the other 
top ranked middleweights. Safety standards should be uniform. I need to 
know that the commissioner in Nevada is just as concerned about the 
health and well being of my opponent and me as the commissioner in New 
York. Sanctioning organizations should not have a role in assigning 
judges or referees to fights.
    Despite your good intentions, however, I must add that we still 
need more. There should be mandatory arbitration provisions placed in 
every promotional agreement which afford boxers a fast and less costly 
means by which to challenge provisions of the contracts. The U.S. 
Attorney General and the chief law enforcers in every state should all 
commit themselves to enforcing this Act. There should also be a 
provision which would allow for private causes of action for violations 
of the Act and promoters and managers should be liable for treble 
damages and attorney fees if they violate provisions of the act. When 
the promoters renew their license every two years consideration should 
be given to whether they have violated this act. The USBA should do 
whatever is necessary to make boxers, promoters and managers aware of 
its rules. This legislation does no one any good if its provisions are 
kept secret.
    Thank you so much for caring enough to draft this legislation. I 
hope that you consider these comments when considering the final 
provisions of this Act. I thank you for allowing me to testify.

    The Chairman. I thank you very much. You are a great 
champion, and you are showing courage outside the ring by 
appearing here today, and I am grateful you are here, and I 
will have some questions for you after the other panelists, and 
thank you, and I am very hopeful that your breaking camp does 
not in any way impair your upcoming performance.
    Mr. Hopkins. No, it will not, Senator. It will not.
    The Chairman. Thank you.
    Mr. Greenburg, welcome. Mr. Greenburg, for the record, is 
president of HBO Sports.

       STATEMENT OF ROSS GREENBURG, PRESIDENT, HBO SPORTS

    Mr. Greenburg. Good morning, Mr. Chairman. My name is Ross 
Greenburg, and I am president of HBO Sports. I am here today to 
express HBO's support for the bill originally proposed by 
Senators McCain and Dorgan for submission in 2002 and then 
titled S. 2550, the Professional Boxing Amendments Act of 2002.
    HBO is the world's leading telecaster of professional 
boxing matches. For the last 30 years, we have televised some 
of the most exciting and memorable boxing events in history, 
and these events remind us that at its best, this sport can 
produce an unparalleled level of drama, competitiveness, and 
heroism. Having been a producer and executive producer for HBO 
Sports for 22 years, I had the privilege of being in the HBO 
production truck for many of these events, helping to bring the 
excitement and drama to our viewers.
    Boxing is also a very significant part of the overall 
programming package HBO offers to our subscribers. Indeed, 
boxing is one of the most important reasons many of our 
subscribers sign up for HBO. Since we are a monthly 
subscription service, we must continuously satisfy our 
subscribers and appeal to potential subscribers by offering the 
best and most compelling programming possible. This would 
include programming such as the award-winning miniseries Band 
of Brothers, the critically acclaimed series, The Sopranos, 
movies, documentaries, concerts, and sporting events. 
Accordingly, HBO pays millions of dollars in license fees in 
order to enable our subscribers to consistently watch the best 
boxers in the world participate in the most exciting and 
competitive fights.
    Because we are deeply committed to boxing both on an 
emotional and a business level, HBO has long been a leader in 
attempting to develop ways to improve the sport. Boxers for far 
too long have been exploited by unfair and coercive practices 
and had their health, safety, and economic well-being treated 
as an afterthought. Questionable ratings of fighters and 
questionable decisions have too often deprived deserving 
fighters of their due, and have caused many in the public to 
turn away from the sport. For these reasons, HBO was an early 
and vocal supporter of the Professional Boxing Safety Act of 
1996, and the Muhammad Ali Boxing Reform Act of 2000. Likewise, 
we support S. 2550.
    We believe that the best way to ensure uniform adherence to 
the standards set forth in the existing Federal legislation is 
through the development of a national oversight body with 
enforcement power. It is only through a body with such far-
reaching power that problems which have long plagued boxing, 
such as physical and economic exploitation of boxers, conflicts 
of interest, questionable judging, and suspect rankings by 
certain sanctioning organizations finally can be effectively 
addressed.
    We also support S. 2550's articulation of a functionality 
test and its definition of promoter. We agree that any entity 
which, in fact, has a promotional agreement with a boxer and 
which, in fact, is primarily responsible for organizing and 
promoting a boxing match should be subject to the provisions of 
the act, whether that entity be a television network, a casino, 
or a sponsor. Under those circumstances, it would be entirely 
appropriate, to the extent that a company has assumed the role 
and the related functions which have been the source of the 
coercive and unfair practices which this legislation seeks to 
curtail, to regulate those functions of the company.
    However, it would be patently unfair and wrong to, as some 
have suggested, define and regulate telecasters that televise 
boxing matches as promoters per se, whether such telecasters 
are subscription programming services like HBO, broadcast 
networks like NBC, or cable networks like ESPN.
    Likewise, it would be wrong to so define and regulate other 
entities, such as casinos, which may play a significant role in 
a boxing match, including being a major source of revenue, but 
do not act as the promoter for the match. The view that 
television networks should be regulated as if they were 
promoters reflects a misperception that the television industry 
and boxing promoters perform roughly the same function and have 
similar relationships with and economic power over boxers. This 
simply is untrue.
    Telecasters are not in a position to and do not engage in 
the coercive and unfair practices at issue here. Telecasters 
have not made exorbitant profits at a fighter's expense, hidden 
revenues from a fighter, or used surrogates to double-dip from 
a fighter. Television executives have not created abhorrent 
conflicts of interest by having their fathers, brothers, 
stepsons, or agents serve as a fighter's manager. Telecasters 
do not enter into contracts with fighters which have indefinite 
terms and minimal obligations. Telecasters do not have 
symbiotic relationships with sanctioning organizations, and 
have not influenced rankings. Telecasters do not have close 
working relationships with judges, and are not in a position to 
influence judges by arranging for their travel, accommodations, 
expenses, or by having the power to give them lucrative 
assignments.
    Rather, telecasters purchase the rights to televise fights 
from a promoter, and then televise those fights. In contrast, 
the promoter controls and arranges all aspects of a boxing 
match, including all revenue streams and expenses, all 
sanctioning, and the travel tickets, accommodations, and per 
diem for the fighters, their associates, and other officials.
    A boxing match cannot take place without a promoter. On the 
other hand, most boxing matches are not televised, particularly 
those involving boxers who are the least well-known and most 
vulnerable to exploitation. Because of such total control, a 
promoter has a unique opportunity to exploit and coerce boxers 
and engage in other inappropriate conduct, and is the proper 
subject of regulation.
    Some have argued that HBO should be regulated because it 
pays large license fees and sometimes enters into exclusive 
multifight agreements. They also argue that because HBO 
attempts to use the power of the purse to purchase television 
rights to the fights it wants to televise, it somehow is 
exercising undue influence. These arguments defy logic. There 
is nothing unequal, coercive, or unfair about this process. 
Fighters and their promoters willingly and eagerly enter into 
multifight agreements with HBO and accept HBO's top-of-the-
market license fees. HBO's multifight agreements involve only 
the very best, well-known boxers who, with their promoters, 
possess substantial market value and negotiating power.
    Also, let us not forget that the promoter and the fighter 
will take the HBO license fee, pool the money with site 
sponsorship and foreign revenue to increase the moneys 
available for the entire promotion. It would turn free market 
principles on their head to subject telecasters like HBO to 
regulation merely because, as a result of arm's length 
bargaining, they enter into agreements to pay large, fixed 
license fees in exchange for the exclusive rights to televise a 
boxer's matches over a fixed period of time.
    HBO's offering large license fees to a promoter to purchase 
the television rights to a boxing match between two top 
fighters is no different than a network offering large fees to 
purchase the television rights to a tennis match or a golf 
match. To draw another analogy, when television networks pay 
billions of dollars in rights to the NFL, the disbursement of 
such revenues, along with all other revenues, to the teams and 
the players is covered by agreements and rules between the 
league, the teams, and the players. No one would suggest that 
the networks, too, should be regulated as part of this process 
simply because they contribute large amounts of money to the 
revenue pool.
    In conclusion, we believe that the legislation enacted over 
the last several years, together with the legislation like S. 
2550, can dramatically improve the sport of boxing for its fans 
and, most importantly, for the fighters, both well-known and 
unknown, who have been ignored and exploited for too long.
    Thank you
    The Chairman. Thank you very much.
    Mr. Hauser, welcome. Please proceed.

        STATEMENT OF THOMAS HAUSER, COLUMNIST AND AUTHOR

    Mr. Hauser. I would like to thank you, Senator McCain, for 
the honor of being invited here today. I will get very quickly 
to the issues at hand. We are far past the point where we can 
blame the world sanctioning organizations and a handful of 
promoters for all of the corruption in professional boxing. The 
entire system is corrupt, and some of the worst enablers are in 
positions of power at State athletic commissions.
    For 8 years, the New York State Athletic Commission has 
been shamelessly run as a slush fund for a political party. 
Data made available by the New York Department of State 
indicates that, prior to recent budget cuts, it cost $87,000 
per fight card to regulate boxing in New York. By contrast, 
last year it cost Nevada only $5,400 per card to regulate 
professional boxing.
    The Chairman. Would you explain that?
    Mr. Hauser. Yes. If you take the total budget of the New 
York State Athletic Commission----
    The Chairman. I mean, why would it cost that much money?
    Mr. Hauser. Because the New York State Athletic Commission 
has many no-show jobs, people are paid exorbitant fees. There 
are sweetheart rent deals for office space. The whole system is 
corrupt from top to bottom.
    When you have a fight in New York, they will bring 20 
people down from upstate New York, most of whom do work for 
local political clubs up there, or are the sons of political 
contributors. They fly them down to New York at State expense, 
they put them up at hotels in New York, they give them per diem 
money, instead of simply having somebody come by subway to the 
fight. $87,000 per fight card in New York, compared to $5,400 
per fight card in Nevada, and that is not even counting the 
fact that Nevada, as part of that budget, also regulates about 
20 tough man contests a year. The New York system is corrupt.
    Mr. Hopkins. If I said that, I would get sued. If I said 
what he just said, I would have a lawsuit in 2 days in front of 
my door, getting served, because I am a fighter and I have to 
go get a lawyer, and I have to go pay for litigation. It would 
drain me out. I would get sued. I mean, this is amazing to me--
excuse me for cutting you off, I do not want to be ignorant----
    Mr. Hauser. That's okay.
    Mr. Hopkins.--but it is amazing that he said what he said, 
and--just assuming--and I am going to tell you, he is telling 
you the truth. I am telling you, Bernard Hopkins, Tom Hauser is 
telling the truth, but if I say that as a fighter----
    The Chairman. Is that on the advice of counsel there?
    [Laughter.]
    Mr. Hopkins. Yes, that is what the whisper was.
    [Laughter.]
    Mr. Hopkins. He knows I am very vocal, and I am never going 
to change that. I mean, that is what got me where I am at 
today. Excuse me, Tom.
    Mr. Hauser. To continue on that note, when Evander 
Holyfield fought Lennox Lewis at Madison Square Garden, the New 
York State Athletic Commission assigned 25 inspectors and 
demanded 67 ringside credentials. By contrast, Nevada assigns 
no more than six inspectors to any given fight card.
    The Chairman. And it was a terrible fight.
    Mr. Hauser. It could have been better, but HBO did a good 
job of broadcasting it. On the night of the Holyfield-Lewis 
fight at Madison Square Garden, Robert Duffy, who is the New 
York State Athletic Commission director of boxing, assigned two 
inspectors to each fighter's corner, then he was overruled, and 
four different inspectors with strong political ties were given 
the assignment. One of those inspectors had never worked a 
fight before in his life. You do not start your career as a 
ring inspector in the corner at a unification fight for the 
undisputed heavyweight championship of the world.
    The Chairman. On the assumption that there is no such thing 
that there is a dumb question, what is an inspector?
    Mr. Hauser. At a fight, each corner has one, or in the case 
of a major fight, sometimes two inspectors who are in the 
corner.
    The Chairman. To do what?
    Mr. Hauser. They are supposed to make sure that the fighter 
is not given any banned substance between rounds and there is 
no tampering with the gloves. You have to know what you are 
doing in the corner.
    The Chairman. I see. I understand.
    Mr. Hauser. These guys did not. Duffy complained about 
these assignments and was told--and this is a direct quote--
hey, Duffy, you don't understand, we won the election. Duffy 
was subsequently forced out of his job. The man who made that 
comment to him now runs the New York State Athletic Commission 
on a daily basis.
    Until recently, the Nevada State Athletic Commission was 
considered the best-run athletic commission in the country. A 
number of dedicated, competent public servants like executive 
director Mark Ratner still work there, but the Nevada State 
Athletic Commission is now a textbook example of conflicts of 
interest run amok. Tony Alamo is a senior vice president at 
Mandalay Bay Resort and Casino, and the man primarily 
responsible for overseeing boxing at Mandalay Bay. Tony Alamo, 
Jr. sits on the Nevada State Athletic Commission, which is 
charged with regulating his father's boxing promotions. The 
situation was further exacerbated on January 13 of this year, 
when Edwin ``Flip'' Homansky, a nationally respected 
administrator----
    The Chairman. He has testified before this Committee.
    Mr. Hauser.--was removed as vice chairman of the Nevada 
commission and replaced by Tony Alamo, Jr. It might be that 
Tony Alamo, Jr. is totally independent of his father, but 
everyone in boxing who I have talked with doubts it, and his 
presence on the Nevada State Athletic Commission----
    The Chairman. Who makes--the Governor makes those 
appointments?
    Mr. Hauser. The Governor makes those appointments, and 
then, in the case of Mr. Alamo, once he was appointed, Luther 
Mack, who is the chairman of the commission, unilaterally 
removed Mr. Homansky and installed Mr. Alamo, Jr. in that 
position, and Mr. Alamo's presence on the Nevada State Athletic 
Commission sends a powerful message regarding Government-
sanctioned conflicts of interest.
    Also, nationwide, many State athletic commissions are 
afraid to enforce the laws that Congress has passed because 
they know that if they do, big fights will simply go elsewhere. 
I will give you an example. Section 11(d)(1) of the Muhammad 
Ali Boxing Reform Act requires all sanctioning organizations to 
submit a complete description of their ratings to the Federal 
Trade Commission and the Association of Boxing Commissions. 
Each of the major sanctioning organizations purports to have 
filed this information. The problem is, most of their filings 
are fraudulent.
    The World Boxing Association had a dead man ranked in the 
top 10 of its supermiddleweight division for 4 months. During 
that same 4-month period, the dead man rose in the rankings 
from number 7 to number 5.
    This past autumn, the World Boxing Association released 
rankings that were so outrageous, and in the heavyweight 
division, so tied to the interests of one promoter, that you 
yourself wrote a letter of protest. Section 6 of the Ali act 
provides that the chief law enforcement officer of any State 
may bring a civil action to enjoin the holding within its 
borders of any professional boxing match related to a false 
filing. No such civil action has ever been brought.
    Section 6 of the Ali act also provides that a world 
sanctioning organization that files incomplete or false 
information shall not be entitled to receive any compensation 
in connection with a boxing match, including sanctioning fees. 
That provision is not being enforced by any State.
    And section 6 of the Ali act provides that violation of the 
disclosure requirements is a criminal offense punishable by up 
to 1 year in prison and a fine of up to $100,000.
    The Criminal Division of the Justice Department is 
responsible for these prosecutions, but no such indictment has 
ever been brought. Why have laws if no one is going to enforce 
them? Boxing needs strong Federal regulation by knowledgeable 
personnel who assume their positions of power without conflicts 
of interest, and while we are waiting for legislation to create 
this regulation, I respectfully suggest that it is imperative 
for the Federal Government to act now, through criminal 
prosecutions as well as civil lawsuits brought by the Justice 
Department and Federal Trade Commission to enforce the laws as 
they are currently written.
    This Committee cannot rely on State athletic commissions to 
clean up boxing, and the Association of Boxing Commissions is 
nothing but a collective of the same officials who have failed 
to enforce the law on the State level.
    Thank you.
    [The prepared statement of Mr. Hauser follows:]

       Prepared Statement of Thomas Hauser, Columnist and Author
    I'd like to thank the Committee for the honor of being invited here 
today and get very quickly to the issues at hand.
    We're far past the point where we can blame the world sanctioning 
organizations and a handful of promoters for all of the corruption in 
professional boxing. The entire system is corrupt, and some of the 
worst enablers are in positions of power at state athletic commissions.
    For eight years, the New York State Athletic Commission has been 
shamelessly run as a slush fund for a political party. Data made 
available by the New York Department of State indicates that, prior to 
recent budget cuts, it cost $87,000 per fight card to regulate boxing 
in New York. By contrast, last year it cost Nevada only $5,400 per card 
to regulate professional boxing.
    When Evander Holyfield fought Lennox Lewis at Madison Square 
Garden, the New York State Athletic Commission assigned 25 inspectors 
and demanded for 67 ringside credentials. By contrast, Nevada employs 
only sixteen inspectors statewide and assigns no more than six 
inspectors to any given fight card.
    On the night of the Holyfield-Lewis fight at Madison Square Garden, 
Robert Duffy (who was the New York State Athletic Commission director 
of boxing) assigned two inspectors to each fighter's corner. Then he 
was overruled, and four different inspectors with strong political ties 
were given the assignment. One of those inspectors had never worked a 
fight before in his life. You don't start your career as a ring 
inspector in the corner at a unification fight for the undisputed 
heavyweight championship of the world. Duffy complained and was told--
and this is a direct quote--``Hey, Duffy; you don't understand. We won 
the election.''
    Duffy was subsequently forced out of his job. The man who made that 
comment to him now runs the New York State Athletic Commission on a 
daily basis.
    Until recently, the Nevada State Athletic Commission was considered 
the best-run athletic commission in the country. A number of dedicated 
competent public servants like executive director Marc Ratner still 
work there. But the Nevada State Athletic Commission is now a textbook 
example of conflicts of interest run amok.
    Tony Alamo is a senior vice president at Mandalay Bay Resort and 
Casino and the man primarily responsible for overseeing boxing at 
Mandalay Bay. Tony Alamo, Jr. sits on the Nevada State Athletic 
Commission, which is charged with regulating his father's boxing 
promotions. The situation was further exacerbated on January 13th of 
this year, when Edwin ``Flip'' Homansky (a nationally respected 
administrator) was removed as vice chairman of the Nevada Commission 
and replaced by Tony Alamo, Jr.
    It might be that Tony Alamo, Jr. is totally independent of his 
father. But everyone in boxing who I've talked with doubts it. And his 
presence on the Nevada State Athletic Commission sends a powerful 
message regarding government-sanctioned conflicts of interest.
    Also, nationwide, many state athletic commissions are afraid to 
enforce the laws that Congress has passed because they know that, if 
they do, big fights will simply go elsewhere.
    I'll give you an example.
    Section 11(d)(1) of the Muhammad Ali Boxing Reform Act requires all 
sanctioning organizations to submit a complete description of their 
ratings criteria to the Federal Trade Commission and the Association of 
Boxing Commissions. Each of the major sanctioning organizations 
purports to have filed this information. The problem is, most of their 
filingsare fraudulent.
    The World Boxing Organization had a dead man ranked in the top ten 
of its super-middleweight division for four months. During that same 
four-month period, the dead man rose in the rankings from number seven 
to number five.
    This past autumn, the World Boxing Association released rankings 
that were so outrageous and, in the heavyweight division, so tied to 
the interests of one promoter that Senator McCain of this Committee 
wrote a letter of protest.
    Section 6 of the Ali Act provides that the chief law enforcement 
officer of any state may bring a civil action to enjoin the holding 
within its borders of any professional boxing match related to a false 
filing. No such civil action has ever been brought.
    Section 6 of the Ali Act also provides that a world sanctioning 
organization that files incomplete or false information shall not be 
entitled to receive any compensation, directly or indirectly, in 
connection with a boxing match including sanctioning fees. That 
provision is not being enforced by any state.
    And Section 6 of the Ali Act provides that violation of the 
disclosure requirements is a criminal offense punishable by up to one 
year in prison and a fine of up to $100,000. The Criminal Division of 
the Justice Department is responsible for these prosecutions, but no 
such indictment has ever been brought.
    Why have laws if no one is going to enforce them?
    Boxing needs strong federal regulation by knowledgeable personnel 
who assume their positions of power without conflicts of interest. And 
while we're waiting for legislation to create this regulation, I 
respectfully suggest that it's imperative for the federal government to 
act now through criminal prosecutions as well as civil lawsuits brought 
by the Justice Department and Federal Trade Commission to enforce the 
laws as they're currently written.
    This Committee cannot rely on state athletic commissions to clean 
up boxing. And the Association of Boxing Commissions is nothing but a 
collective of the same officials who have failed to enforce the law on 
the state level.

    The Chairman. Thank you very much. Welcome back, Mr. Sugar.

 STATEMENT OF BERT RANDOLPH SUGAR, BOXING HISTORIAN AND AUTHOR

    Mr. Sugar. I thank you for inviting me back again to 
testify. Since the last time we foregathered to discuss the 
state of the union of boxing, it has continued to be one of 
disunion, continuing on its merry way, committing mistakes and 
misdeeds and what-have-you's. For although boxing is a sport in 
its own right, it is also a sport in its own wrong. And the 
primary culprits are those clowns in clowns' clothing, these 
sanctioning bodies we call ``The Alphabets,'' or Alphabet 
Soups, a term I coined somewhere back in the early 1980s when I 
was the editor of Ring Magazine to describe these 
organizations, all of whom seem to be dedicated to the belief 
that you can fool too many of the people too much of the time.
    For references, I give you the WBC (without the Henny 
Youngman punchline of ``Take them, please''). When Roy Jones, 
Jr. announced he would leave the light heavyweight division, 
vacating his title, for the first time, to campaign as a 
heavyweight, then to fight Buster Douglas, the WBC declared 
that title vacant. They even matched two contenders--collecting 
sanctioning fees, calling it a championship fight. And the 
fight was won by a fighter out of Germany, Graciano 
Rocchigiani. He was awarded a championship belt. It was in all 
the papers. He was sent congratulatory messages by Jose 
Suleiman, the president of this wonderful group. It was on all 
their rating listings.
    And then when Roy Jones decided to come back, all of that 
disappeared. He no longer was champion. They changed their 
mind, thank you, cashed the check and went home. He attributed 
all of it to a ``typographical error'' in the lists.
    Then there is the WBA.
    The Chairman. He was able to win a judgment in court.
    Mr. Sugar. Let him collect it. You are right, he got a 
judgment for this, because somehow, someway, somewhere, a 
German television network had offered a $6 million contract 
contingent on his being a champion.
    The Chairman. You do not think he will ever collect the 
money?
    Mr. Sugar. No, you know, unless he can enforce this in 
Mexico. This is the same country that let Jose Sulaiman----
    The Chairman. This is the problem with these outfits that 
are located overseas, right?
    Mr. Sugar. Well, in part, yes, but remember, Jose Sulaiman 
is the man they arrested once for having found all of these 
artifacts--Inca, Mayan artifacts--and he got out of it. He was 
just storing them for safekeeping from the courts. That sort of 
gave him a----
    The Chairman. You do not think they will ever collect the 
30-million-dollar judgment?
    Mr. Sugar. Senator McCain, I view you as a very intelligent 
man.
    The Chairman. Please proceed.
    [Laughter.]
    Mr. Sugar. Sure. Then there is the WBA, which issued 
ratings which belonged in a Lewis Carroll fictional work. It 
has been touched upon. There were fighters leapfrogging over 
other fighters because they were connected with one promoter, 
and when they were met with howls of indignation by other 
promoters and scathing criticism from the press, they ``mea 
culpa'd.'' They said, oh, it was just a computer error. Here we 
have a typographical error, there we have a computer error.
    And finally, there is that third, wonderful organization, 
that third wonderful alphabet, the IBF, which after their head, 
Bobby Lee, was convicted on several charges, one of which 
should have been arrogance, the IBF was placed under a 
Government monitor, and that has not even stopped him.
    Just last week, Tim Smith, in the New York Daily News wrote 
about the time when a Washington fighter, Sharmba Mitchell, 
fought in a 12-round eliminator contest, paid a sanctioning 
fee, and was basically pushed aside by another fighter, Arturo 
Gatti, whose promoters did not want to pay the fee, did not 
want to fight 12 rounds, just 10. The reason? The head of the 
IBF membership committee had not even communicated with the 
head of the IBF championship committee. And this is under a 
Government monitor. Wonderful!
    Gentlepersons, and I say that, albeit the seats are empty, 
because Senator Boxers and Snowe are members of this august 
body, enough is enough is enough. We have had typographical 
errors, we have had computer errors, we have had 
noncommunication errors.
    I remember several years ago, more years than I want to 
remember, when my then-little daughter came downstairs and she, 
holding a kitten in her hand, said, the cat having gone into 
her closet to give birth, ``daddy, the cat has fallen apart.'' 
Well, boxing has fallen apart, and I think it is up to this 
Committee, like all of those King's men who tried to put 
Humpty-Dumpty together, to try--I am not saying they will--to 
put it back together again. If a journey of 1,000 miles begins 
with one step, you need a road map. And there are two things 
that have to be done: number 1 of which is, this IBF monitor 
has to be monitored himself, if, in fact, they can even 
communicate.
    Why? Because the committee and the Muhammad Ali reform bill 
coming out of government will only inspire confidence if the 
first government incursion into boxing is successful and clean, 
and like Caesar's wife, beyond repute. We cannot have them 
wandering around the landscape and everybody will say, well, 
look, but, the Federal Government has done nothing, because 
they cannot even get the ratings right and the championships 
right. If you do not oversee somehow what has been done there 
and make sure that they are the model, at least on that level, 
that you want.
    The second point I make quickly is that the other two 
alphabets, as you alluded to, headquartered in Caracas and 
Mexico City, I am sure above some charm and beauty school down 
there, have got to be brought to their, if not heels and knees, 
attention. The way to do that is, if they do not conform, 
impound the sanctioning fees paid by American and foreign 
fighters when they fight here in the U.S.
    How so? The WBA, out of Venezuela, the WBC out of Mexico, 
come here to make money. They get a percentage of the 
sanctioning fees. There is more of a percentage if they fight 
in the U.S., and if they do not conform, then--and they come 
here for the same reason Willy Sutton robbed banks, because 
this is where the money is--the sanctioning fee should be 
impounded or put in escrow until they conform. Then, they, too, 
will pay more than attention. They will pay money.
    Senator McCain, to do otherwise, and not give the Muhammad 
Ali bill the teeth it needs, is equivalent to burying your 
heads in the sand, and that will bring a very inviting target 
for critics. I hope that never comes.
    Thank you.
    [The prepared statement of Mr. Sugar follows:]

 Prepared Statement of Bert Randolph Sugar, Boxing Historian and Author
    Senator McCain and Members of the Senate Committee on Commerce, 
Science and Transportation, thank you for inviting me back again to 
testify.
    Since the last time we foregathered to discuss the state of the 
union of boxing it has continued to be one of disunion, continuing on 
its merry, committing mistakes and misdeeds. For although boxing is a 
sport in its own right, it is also a sport in its own wrong.
    And the primary culprits are those clowns in clowns' clothing, 
those sanctioning bodies called ``The Alphabets''--shorthand for ``The 
Alphabet Soups,'' a term I coined as editor of Ring Magazine back in 
the early 1980s to describe organizations like the WBC, the WBA and the 
IBF, all dedicated to the belief that you can fool too many people too 
much of the time.
    For references, I give you the WBC (without the Henny Youngman 
punchline: take them, please!) When Roy Jones Jr. announced he would 
leave the light heavyweight division, vacating his title, to campaign 
as a heavyweight for the first time, the WBC declared its light 
heavyweight title vacant and matched the two contenders for what they 
called a ``championship fight''--co1lecting the necessary sanctioning 
fees, thank you! And although the fight was won by Graciano Rocchigiani 
and he was awarded a championship belt--which looked like it was made 
out of the broken Budweiser bottles found on the San Diego Freeway--and 
was listed in the WBC ratings sheets for several months as their 
``champion,'' when Jones returned to the light heavyweight division, 
the WBC changed their minds and their designation, taking away 
Rocchigiani's title, claiming it was all, and I quote, a 
``typographical error.,''
    Then there is the WBA, which issued ratings which belonged in a 
Lewis Carroll fictional work with fighters leap-frogging over other 
fighters after they had signed with a certain promoter. When they were 
met with howls of indignation by other promoters and scathing criticism 
from the press, they mea culpa'd and changed them, claiming they had 
been, in their words, the result of ``a computer error.''
    And, finally, there is that third wonderful ``Alphabet,'' the IBF, 
which, after their head was convicted on several charges, up to and 
including arrogance, was placed under a government monitor by the 
court. But that hasn't stopped them. Only recently Tim Smith of the New 
York Daily News brought to light a ``mux-ip'' which occurred when a 
fighter, Sharmba Mitchell, won an ``eliminator'' bout, having paid the 
appropriate sanctioning fees for the 12-round championship-length 
fight, was passed over in their ratings by another fighter, Arturo 
Gotti, who, not incidentally, had won a 10-round fight without paying 
sanctioning fees. The reason given by the IBF was-get this--that the 
head of the IBF ratings committee and the head of the IBF championship 
committee had not communicated with one another. And this is an 
organization under a government monitor!
    Gentlepersons (and I say that because Senators Barbara Boxer and 
Olympia Snowe are members of this august body), enough is enough is 
enough! Enough with ``typographical errors.'' Enough with ``computer 
errors.'' Enough with ``non communication.''
    I remember, lo those many years ago, when my then-young daughter 
came down the stairs holding a newborn kitten in her hands after the 
cat had gone into her closet and given birth, saying, ``The cat has 
just fallen apart.'' Well, today boxing has fallen apart. And this 
Committee must act, like all those king's men tried to do with Humpty 
Dumpty, to put it back together again.
    And if, as has been said, a journey of a thousand miles begins with 
a single step, we still, need a road map. Here, I hope, is one . . .
    First, as an oversight Committee, you shouldn't lose sight of the 
fact that the IBF is currently being run by a government monitor. Here 
you must become guardians of not only law and order, but order itself 
by monitoring the government monitor to insure that the IBF becomes a 
model organization. Only in that way can you inspire the necessary 
confidence in the boxing community that the government's Muhammad Ali 
Reform Act will be more effective than the government-run IBF is. And 
that what the Muhammad Ali Bill proposes to do, it will do.
    And, secondly, if those two other ``Alphabets,'' headquartered in 
Mexico City and Caracas--probably located somewhere above charm and 
beauty schools--the WBC and the WBA, don't conform to your reforms, 
then initiate sanctions on these sanctioning bodies. For they come to 
the U. S. for the same reason Willie Sutton robbed banks, ``cause 
that's where the money is.'' And when they do, if they don't conform, 
impound the sanctioning fees they collect from fighters fighting here. 
Then they, too, will pay more than attention.
    To do otherwise and not give the Muhammad Ali Bill teeth means 
burying your head in the sand. And that can invite a very inviting 
target for critics.

    The Chairman. Thanks, Bert.
    Just before we go to Mr. Pannella, some thought that the 
fact that ratings would be put in USA Today, once a week, I 
believe, would have some beneficial effect. It seems to me it 
has had no effect.
    Mr. Sugar. Well, their ratings--and Dan Rafael is a very 
good writer, by the bye----
    The Chairman. Yes.
    Mr. Sugar.--are predicated on the traditional 8 divisions. 
There just happen to be 17 divisions. This is what I meant when 
I said boxing has fallen apart. When I was a kid, and that goes 
back 20,000 years, there were eight divisions, and every 
champion was a world champion, a Bernard Hopkins. There are now 
17 divisions, and there can be as many as 68 champions because 
of four sanctioning bodies--the WBO, which is the one that had 
the dead man rising, 68 champions. I think, Senator McCain, you 
are the only person who does not own a belt.
    The Chairman. Mr. Hopkins, how many titles have you held?
    Mr. Hopkins. I have held the IBF championship since 1995. I 
am going on my eighth-plus year. I have been the undisputed 
middleweight champion since September 29 of 2001, when I beat 
Felix Trinidad.
    The Chairman. That means all of the other WBC, WBA, all of 
those, and IBF.
    Mr. Hopkins. IBF, yes. They all get sanctioning fees, as 
Bert spoke about earlier. Thank God, I am self-managed since 
1995. I have been calling my own shots, with advice from people 
as I go along, but that is 9 or 10 percent out the window just 
with the sanctioning fees that have to be paid to wear their 
belt and give them recognition. When I became undisputed, 
worked so hard for so many years to become the number one 
champion in the division, which there are so many divisions, as 
Mr. Sugar alluded to, is that once I achieved that, it was 
greatness. They named me superchampion.
    They called me a superchampion, and called William Joppey, 
the WBA champion, world champion, so now not only do they get 
sanctioning fees from me when I fight March 29 at the Spectrum 
in Philadelphia, my home town, they also will get sanctioning 
fees from William Joppey when he is fighting.
    Now, I do not have any college degree, but that is double-
dipping. Senator McCain, we could have meetings--and it is good 
that we are here. A lot of fighters are scared to speak up. I 
am going to tell you, I am going to speak for my fellow 
fighters. A lot of them feel that it is going to be business as 
usual, and they are going to be left out there alone. It is 
like, go out there and speak your mind. You have got stories. 
You can shed some light on your sport, and then you have no 
phone calls.
    If you do these things, they are scared of repercussions. I 
mean, most of us did not come from Harvard or Yale or Stanford, 
and make over $100,000 a year jobs. You know where we come 
from. I read a couple of your statements on the Internet and 
things like that. A lot of us do not want to risk that.
    I am not saying I am better, but I am different. I spoke 
when I did not have three belts. I am going to speak even 
louder now because at least for a quote or a picture, they 
would talk to the undisputed champion of the world.
    Ross Greenburg from HBO has done a great job when he took 
over the spot Lou Rubella held. They cannot control boxing and 
what promoters do. But I always ask myself, and I might ask 
Ross a couple of times, is that the promoters--Bob Graham, Don 
King, the Duvas, Cedric Kushner--those guys do not go into a 
bank account and pay me. They do not go pay out of their own 
personal bank account. Where do they get the money? That is 
what the issue is about, greed, so let us deal with where they 
get their money. Who is the bank in boxing? TV, so if TV is 
willing to pay for championship fights because we have belts, 
then pay for fights where fighters do not have belts, on their 
own merit, on their own talent, on their own ability.
    If the fighter is bigger than the belt, which some are and 
some are not, then the payee should set a standard, to say, 
hey, we do not care if Bernard got two or three belts, but we 
know he is going to put on a good fight, we do not care if 
Arturo Gatti's got a belt, but he is tough, he is going to 
bring a crowd, we are going to get good ratings on TV. Then the 
sanctioning bodies would all fall to the side.
    But when you have promoters who come and say, well, look, 
you are making $2 million, or you are making $3 million, and 
they get $10 million from a network, there is nothing, there is 
no teeth there, where a network or a promoter would say, look, 
this is what I got, you negotiate from there, and to be honest, 
TV in most cases, it is like, none of their business. They are 
not policemen for us.
    I mean, I can call up HBO and say, well, look, how much did 
Don King really get for this whole particular fight, and if it 
gets back to Don King, what are the repercussions for a fighter 
who will not stand up like Bernard Hopkins, who is not 
outspoken like Bernard Hopkins, who can deal with the 
repercussions of speaking of something that I can change and be 
known for that.
    I do not want to just leave this game, Senator McCain, as 
just being a fighter that had a belt and he was a good fighter 
when he fought and that was it. When I leave this boxing 
business, I want to raise enough, if there is such a word as 
``good hell,'' so I would be remembered not for throwing a left 
jab or a right hook, but as a guy who stood up, maybe like the 
Curt Floods of later years, the guys I look up to who stood up, 
Bill Russell in Boston, when he played there, the things he had 
to go through there.
    It is a little different, but I want to be remembered, if I 
help put something in force for years and years in the future, 
then I want to be remembered not just for being a great 
champion. Today to be called a champion--I hate to say it, 
because I worked so hard to be a champion, it is cheese. It is 
cheesy. It is cheap, because the average public is confused 
with who the champion is.
    You have got the de la Hoyas, you have got the Lennox 
Lewis, you have got Bernard Hopkins, you have got Roy Jones, 
Jr., you have got only a small percentage of us, maybe 5 out of 
100 percent, that is really making the dollars and the monies 
that you can say you have made it, but what about the 80 
percent, what about the six-round fighters?
    We are here talking about the Hopkins of the world, with 
millions of dollars and the sanctioning fees. Hey, the 
sanctioning body is not getting money from a 10-round fighter 
or a 6-round fighter or a 3-round fighter. They are getting 
abused and exploited other ways, and it sad to know that when I 
am in my gym, when I am in that gym this afternoon, at 5:00 I 
will get there, I will see the majority of people want to 
follow the dreams that Bernard Hopkins has followed, all the 
way to now, and I know that the chances are, they are not going 
to make it.
    They are not going to make it because they are going to get 
swallowed up in the system, and they are going to get exploited 
all the way up to the end, when they cannot walk or talk, and 
when they cannot throw a punch. Then how do they continue to go 
back into society? Do you get a shovel and dig a hole and bury 
yourself because you are no more a boxer?
    So it is health care----
    The Chairman. Pensions.
    Mr. Hopkins. It is everything, pension plans, and not the 
sanctioning body's pension plan, not some--we are looking out 
for fighters who can donate more money to the sanctioning 
bodies, we are going to buy you a 401(k). I mean, you have to 
understand that this is a moneymaker for a lot of people. I do 
not mind Don King or Arum or anybody making money because they 
have put in their time, but I would like to see them with a 
twisted nose, too.
    I would like to see them every now and then say that they 
actually know how this is to get up and train, you know, 
holidays you cannot eat. I chose to be a professional fighter, 
so when Christmas and Thanksgiving and birthdays and 
anniversaries and things like that--I have got to miss out on, 
because I chose to do what I do. But by the same token, if I am 
the horse pulling the cart, if I am the body of the boxing, 
without no fighters, there is no Don King. Without no fighters, 
there is no HBO showing those fights, so we have got the power, 
but we do not know it. We are the sleeping lion, the sleeping 
tiger that does not know.
    The majority of the fighters are--this room right now, I am 
a little disappointed, because in this room right now there are 
supposed to be a line of fighters behind me right now, maybe 
not here to speak, but to show their presence here, and 
everyone in front of me right now would be looking and saying, 
well, you have got Lennox Lewis here, you have got the George 
Foremans, such an American Dream guy, sitting here speaking for 
the guys that might not be the next Foreman, but it is going to 
come back to bite the Joneses, it is going back to bite the de 
la Hoyas, because someone in their family is going to follow in 
their footsteps and not be fortunate, and with some luck, and 
as talented, will not get the benefits that they got, and they 
are going to wish they spoke like I did.
    They are going to wish I spoke up and they are going to 
wish I took the chance and stuck my head out there in the 
lion's den to sacrifice, whatever, sacrifice for others. They 
are going to wish they did that. When somebody in their own 
family, somebody in their own blood, somebody they love and 
care for do not get the benefits that they got by their talents 
and the good break that they got 10 years from now.
    I am not talking about tomorrow, 5 years from now. They are 
going to wish they did what Bernard Hopkins did, and that is 
why I am so passionate about being here, and taking up other 
people's time. But I just want to let you all know that this is 
a sport that saved a lot of people from a lot of bad 
situations, and they need to be protected, because they cannot 
protect themselves because they do not know. They do not know.
    The majority of us cannot read. The majority of us cannot 
read properly. We do not understand what advance compares to 
training expenses, and it is a whole bunch of stuff that needs 
to go on. I was ignorant when I came into this sport, Senator. 
I was ignorant. I did not know nothing. I just wanted to fight. 
I did not care what I got paid. I made that statement.
    When I look at old fight tapes of myself at the Blue 
Horizon and I say, Man, did I--I do not believe I said 
something like that, I'll fight him for anything. I don't care, 
I just want to kick his butt. Right now, I look at that, and it 
is a monumental--knowing how far I have grown, I look at that 
and say, ``What a fool.'' But was I a fool? I was just 
ignorant. I did not know.
    Well, Mr. McCain, 80 percent of fighters do not know, and 
when they do know, they are afraid to speak, because they are 
dealing with people that have very deep pockets, and they are 
very, very politically tied-in. In the world of boxing, we are 
so small. It is so small. They cannot get rid of me because I 
do not deviate from my craft. I am always going in the ring in 
shape. I live right.
    They would love to get these three belts from me. Do you 
think they love me? Do you think they want me down here? Do you 
think they want me down here, the undisputed middleweight 
champion with some merit of title, down here speaking in front 
of Senator McCain and making sense?
    [Laughter.]
    Mr. Hopkins. I mean, let us be real here. They do not want 
me down here, but what can they do? Stop opportunities?
    Well, I have got three belts, and I know the belts are 
money. In boxing, the belts mean more to them than my life. It 
means more to them than my life, so as long as I got something 
that I know they want, and make money for everybody.
    They talk about exploitation. I am exploiting that belt. I 
am going to tease them with their belt to get the benefits that 
I deserve, and that is why Bernard Hopkins will not lose no 
time soon, because I have not only one--I parlayed one for so 
many years, since 1995, but they messed up and gave me two 
more. Oh, McCain, we have got a job to do.
    [Laughter.]
    Mr. Hopkins. Oh, they are in trouble, undisputed. There is 
no dispute.
    Thank you.
    The Chairman. Thank you. Thank you very much. That is 
actually a wonderful statement, and continues to motivate me to 
stay at this sometimes difficult effort.
    Mr. Pannella, welcome. You are the last witness. Thank you, 
and then we will proceed to questions and additional comments.

      STATEMENT OF PATRICK PANNELLA, EXECUTIVE DIRECTOR, 
               MARYLAND STATE ATHLETIC COMMISSION

    Mr. Pannella. Before I begin, I would like to publicly 
thank Bernard Hopkins for all he has done. He has come forward 
today, but today was not the first day he has come forward. 
Several years ago, I met Bernard at the National Association of 
Attorneys General hearings in New York City. I believe, 
Bernard, when you came out of the taxicab, certain people told 
you, do not go in through that door of the downtown Athletic 
Club, do not go in, because it is going to hurt you 
rankingswise and fightswise.
    Mr. Hopkins. You remember that.
    Mr. Pannella. And I remember, I did not know Bernard, but I 
saw the look on his face, and he said some things, and one of 
the things he said was, I am going to do it anyway, and I want 
to thank you for that.
    Bernard also was a guest and future speaker at the American 
Association of Professional Ringside Physicians meeting in 
Baltimore back in August, and you have been consistent, you 
have been brave, and I commend you for that.
    It is, indeed, an honor for me to come before you today as 
a representative of both the Association of Boxing Commissions 
and the Maryland State Athletic Commission. My name is Patrick 
Pannella. I am the executive director of the Maryland State 
Athletic Commission. I have proudly served in this capacity 
since July of 1995. The Maryland State Athletic Commission is a 
unit within the Division of Occupational and Professional 
Licensing in the Maryland Department of Labor, Licensing and 
Regulation.
    Since that time, I have been involved in the regulation of 
over 700 bouts which have taken place in the State of Maryland. 
With a few exceptions, these bouts have not been of the 
championship variety but, rather, encompassed the undercard 
type of bouts, which basically comprise the majority of the 
more than 800 professional boxing shows that were held in the 
United States last year.
    Most of the boxers that compete in the State of Maryland 
are individuals who are on their way up the boxing ladder 
seeking to gain wins and become ranked by one or more of 
boxing's numerous sanctioning organizations, or alphabets, as 
Bert would say, or opponents who are journeyman boxers earning 
purse monies amounting to somewhere between $100 and $200 a 
round.
    Just like the few athletes who compete for large sums of 
money in televised championship bouts, these boxers also come 
under the jurisdiction of Federal boxing laws aimed at 
providing minimal safety measures protecting the boxer from 
coercive and unfair business practices and lending integrity to 
a sport historically fraught with inequity, corruption, and 
injustice.
    Since this Committee held public hearings in regard to the 
Professional Boxing Safety Act of 1996, I have been fortunate 
to have attended nearly every public boxing hearing held by 
your distinguished body. When Congress had difficulty locating 
an active professional boxer to testify, and Bernard, that did 
happen back in 1995, in support of the Professional Boxing 
Safety Act, I accompanied former Maryland middleweight boxer 
Alfonso Daniels as he spoke before this Committee.
    I remember discussions in boxing circles that boxers were 
apparently worried that testifying in support of a Federal 
boxing bill would somehow hurt their chances to obtain a 
championship fight opportunity, or to be marketable. I recall 
Mr. Daniels telling me that it did not matter to him how boxing 
perceived his coming forward to testify, as he would do what he 
thought was right and just.
    The brave efforts of Mr. Daniels, Bernard Hopkins, and 
other boxers who have followed them to support the Federal 
boxing laws before this Committee have not been in vain. 
Positive changes to the sport have been made. A key ingredient 
of the Professional Boxing Safety Act was requiring all boxers 
to obtain and carry a professional boxer's Federal 
identification card. In my opinion, this card has literally 
saved lives.
    Shortly before the Professional Boxing Safety Act was 
signed into law, a boxer from another State appeared in 
Maryland with false identification. We were fortunate to catch 
him and to prevent him from boxing. It turned out that the 
boxer had a record of some 11 or 12 losses, all via knock-out, 
and no wins. In addition, he had been knocked out the night 
before he attempted to compete in our State.
    On more than one occasion, I have joined a ringside 
physician in spending the night at Maryland's shock trauma 
center in Baltimore, waiting to find out the status of an 
injured boxer. It is a scenario that I did not wish to repeat. 
The professional boxer's Federal identification card 
dramatically limited the opportunities for boxers to compete 
using a fake name, and to place themselves in physical danger.
    The Maryland State Athletic Commission is a member of the 
ABC, the Association of Boxing Commissions, and our commission 
members and staff have remained actively involved in this 
organization over the past 7 years. The ABC serves as a 
valuable communications link for its member State and tribal 
boxing commissions. ABC members disseminate valuable 
information to each other on a consistent basis. Such 
information would include information pertaining to a boxer's 
boxing record, boxing history, boxing ability, and suspension 
status.
    At the recommendation of Tim Lueckenhoff, president of the 
ABC, the ABC recently created a training seminar to be attended 
by all referees and judges who work for its member boxing 
commissions. This was, I believe, a very good idea to conduct 
such training sessions. My sincere hope is that the ABC or the 
United States Congress will be able to take a good idea one 
step further to ensure that all officials who work championship 
boxing bouts are competent and fair. I will refer to testimony 
which Mr. Lueckenhoff provided to this Committee in testimony 
given last year.
    Based upon certain prescribed criteria, the respective 
boxing commissions would submit to the ABC or a Federal boxing 
administration a list of names of those judges and referees 
deemed to be worthy of officiating at a championship bout, from 
which a pool of such qualified judges and referees may be 
comprised. As a prerequisite to being placed on such a list, 
all judges and referees will be required to participate in 
mandatory training seminars as I described earlier. These 
officials would be tested by the ABC or by a Federal Boxing 
Administration to ensure that the official possesses the 
requisite skills necessary to effectively perform.
    The boxing commission where the championship bout is to 
take place would then select from this pool of officials 
without any interference from a sanctioning organization or 
anyone else the judges and referees who would officiate the 
championship bout.
    Mr. Lueckenhoff, who unfortunately is unable to be here 
today, is already on record with this Committee as supporting 
the creation of a United States Boxing Administration, provided 
that boxing commissions are able to maintain their autonomy. 
There is certainly a need to ensure that at least minimal 
medical and safety standards are in place for all professional 
boxing bouts, with individual boxing commissions being 
permitted to maintain higher regulatory requirements as they so 
choose.
    Patently, in the blatant absence of any league, body or 
organization, there is a need for effective and uniform 
regulation and enforcement of the sport of professional boxing. 
Presently, the work of the ABC is carried out by a network of a 
relatively few number of volunteers, without any funding, 
coupled with the lack of enforcement of Federal boxing laws by 
the United States Attorneys Offices and the chief law 
enforcement offices of the various States, the ABC is 
unfortunately unable to have the type of impact on the sport of 
boxing that it desires. By working together, and benefitting 
from the resources each provides, the ABC and the United States 
Boxing Administration dually can bring uniformity, equity, and 
safety to the sport we all enjoy.
    Thank you for your time.
    [The prepared statement of Mr. Pannella follows:]

      Prepared Statement of Patrick Pannella, Executive Director, 
                   Maryland State Athletic Commission
    It is indeed an honor for me to come before you today as a 
representative of both the Association of Boxing Commissions (ABC) and 
the Maryland State Athletic Commission. My name is Patrick Pannella. I 
am the Executive Director of the Maryland State Athletic Commission. I 
have proudly served in this capacity since July of 1995. The Maryland 
State Athletic Commission is a unit within the Division of Occupational 
and Professional Licensing in the Maryland Department of Labor, 
Licensing and Regulation (DLLR). Since that time, I have been involved 
in the regulation of over 700 bouts which have taken place in the State 
of Maryland. With a few exceptions these bouts have not been of the 
championship variety, but rather encompass the undercard or ``club 
level'' type of bouts which basically comprise the majority of the more 
than 800 professional boxing shows that were held in the United States 
last year.
    Most of the boxers who compete in the State of Maryland are 
individuals who are on their way up the boxing ladder, seeking to gain 
wins and become ranked by one or more of boxing's numerous sanctioning 
organizations, or credible opponents who are journeyman boxers earning 
purse monies amounting to somewhere between one hundred and two hundred 
dollars a round. Just like the few athletes who compete for large sums 
of money in televised championship bouts, these boxers also come under 
the jurisdiction of federal boxing laws aimed at providing minimal 
safety measures, protecting the boxer from coercive and unfair business 
practices, and lending integrity to a sport historically fraught with 
inequity, corruption and injustice.
    Since this Committee held public hearings in regard to the 
Professional Boxing Safety Act of 1996, I have been fortunate to attend 
nearly every public boxing hearing held by your distinguished body. 
When the United States Congress had difficulty in locating an active 
professional boxer to testify in support of the Professional Boxing 
Safety Act, I accompanied former Maryland middleweight boxer Alfonso 
Daniels as he spoke before this Committee. I remember discussions in 
boxing circles that boxers were apparently worried that testifying in 
support of a federal boxing bill would somehow hurt their chances to 
attain a championship fight opportunity or to be marketable. I recall 
Mr. Daniels telling me that it did not matter to him how boxing 
perceived his coming forward to testify, as he would do what he thought 
what was right and just.
    The brave efforts of Mr. Daniels and the other boxers who have 
followed him to support the federal boxing laws before this Committee 
have not been in vain. Positive changes to the sport have been made. A 
key ingredient of the Professional Boxing Safety Act was requiring all 
boxers to obtain and to carry a professional boxer's federal 
identification card. In my opinion, this card has literally saved 
lives. Shortly before the Professional Boxing Safety Act was signed 
into law, a boxer from another state appeared in Maryland with false 
identification. We were fortunate to catch him, and to prevent him from 
boxing. It turned out that the boxer had a record of some eleven or 
twelve losses, all via knockout, and no wins. In addition, he had been 
knocked out the night before he attempted to compete in Maryland. On 
more than one occasion, I have joined a ringside physician in spending 
the night at Maryland's Shock Trauma Center in Baltimore, waiting to 
find out the status of an injured boxer. It is a scenario that I do not 
wish to repeat. The professional boxer's federal identification card 
has dramatically limited the opportunities for boxers to compete using 
a fake name and to place themselves in physical danger.
    The Maryland State Athletic Commission is a member of the 
Association of Boxing Commissions (ABC), and our Commission members and 
staff have remained actively involved in this organization over these 
past seven years. The ABC serves as a valuable communications link for 
its member state and tribal boxing commissions. ABC members disseminate 
valuable information to each other on a consistent basis; such 
information would include information pertaining to a boxer's boxing 
record, boxing history, boxing ability and suspension status. At the 
recommendation of Tim Lueckenhoff, President of the ABC, the ABC 
recently created a training seminar to be attended by all referees and 
judges who work for its member boxing commissions. This was, I believe, 
a very good idea to conduct such training sessions.
    My sincere hope is that the ABC or United States Congress will be 
able to take a good idea one step further. To ensure that all officials 
who work championship boxing bouts are competent and fair, I will refer 
to testimony which Mr. Lueckenhoff provided to this Committee in 
testimony given last year. Based upon certain prescribed criteria, the 
respective boxing commissions would submit to the ABC or a federal 
boxing administration a list of names of those judges and referees 
deemed to be worthy of officiating at a championship bout from which a 
``pool'' of such qualified judges and referees may be comprised. As a 
prerequisite to being placed on such a list, all judges and referees 
would be required to participate in mandatory training seminars as I 
described earlier. These officials would be tested by the ABC or a 
federal boxing administration to ensure that the official possesses the 
requisite skills necessary to effectively perform. The boxing 
commission where the championship bout is to take place would then 
select from this ``pool'' of officials, without any interference from a 
sanctioning organization or anyone else, the judges and referees who 
would officiate the championship bout.
    Mr. Lueckenhoff who, unfortunately, is unable to be here today, is 
already on record with this Committee as supporting the creation of a 
United States Boxing Administration provided that boxing commissions 
are able to maintain their autonomy. There is certainly a need to 
ensure that at least minimum medical and safety standards are in place 
for all professional boxing bouts, with individual boxing commissions 
being permitted to maintain higher regulatory requirements as they so 
choose.
    Patently, in the blatant absence of any league, body or 
organization, there is a need for effective and uniform regulation and 
enforcement of the sport of professional boxing. Presently, the work of 
the ABC is carried out by a network of a relatively few number of 
volunteers. Without any funding, coupled with the lack of enforcement 
of federal boxing laws by the United States Attorney's Offices and the 
chief law enforcement offices of the various states, the ABC is 
unfortunately unable to have the type of impact on the sport of boxing 
that it desires. By working together, and benefitting from the 
resources each provides, the ABC and the United States Boxing 
Administration dually can bring uniformity, equity and safety to the 
sport we all enjoy. Thank you for your time.

    The Chairman. Well, thank you, Mr. Pannella.
    Bert, the Lennox Lewis-Tyson fight was not sanctioned by 
the Nevada Boxing Commission, so they shopped around and ended 
up in Tennessee.
    Mr. Sugar. In fact, I think every sandspit in the Caribbean 
wanted in on that.
    The Chairman. And remarkably, now they are talking about a 
rematch rather than Mr. Lewis fighting far more qualified 
contenders. What is that all about?
    Mr. Sugar. Well, two things, number one of which, it is an 
easier payday for Mr. Lewis, who I am sure, that is about the 
only reason he will stay around before he retires.
    They talked about Klitschko again. I do not know which 
Klitschko is which Klitschko. I even have a question as to 
whether there are two of them. I have never seen them together. 
It looks like the same guy, but Lennox Lewis, who had flirted 
with the idea of retiring, sees another easy payday.
    The Chairman. There is nothing that would motivate Mr. 
Lewis to fight what everyone views as the number 1 and number 2 
challenger?
    Mr. Sugar. The problem is, Senator, money. Boxing, probably 
not unlike anything else in life, is where money talks and BS 
walks, and these sanctioning bodies which----
    The Chairman. They will move Tyson up to number 1.
    Mr. Sugar. Oh, he will rise quicker than Lazarus from the 
dead if there's money is in it. These alphabet soup groups, 
which I question whether they even know the concept of alphabet 
soup, if they look down in their bowl, know the meaning of 
dollar signs when they look down, and with Tyson still being a 
viable draw, if not a viable contender. How many people do you 
think back last June actually tuned in the Tyson-Lewis fight to 
watch Lennox Lewis, as opposed to Mike Tyson? Therein lies the 
economies of boxing.
    The Chairman. Mr. Hauser, can you comment on that? And in a 
perfect world, how would you force a fight between Bernard 
Hopkins and Roy Jones, Jr. and/or Lennox Lewis and one of the 
Russian brothers?
    Mr. Hauser. You cannot force a fight between two people 
unless they both want to fight, and in the case of Bernard 
Hopkins versus Roy Jones, over the years, either one or both of 
them has not wanted to fight, or the dollars have not been 
right for them, and a fighter, if he is the champion, there is 
supposed to be a mechanism in place where he fights the 
mandatory challenger. The problem is that the system is so 
corrupt that the ratings are jiggered, and again, I come back 
to the fact that nobody is enforcing the law.
    Why hasn't a single Government entity, State or Federal, 
brought a lawsuit against any of these sanctioning 
organizations for phony filings and phony ratings?
    I remember several years ago you sent a letter to Robert 
Pitofsky when he was chairman of the Federal Trade Commission 
asking the FTC to look into it, and nothing came of that. If 
you want to clean up boxing, you can start by having the 
Justice Department bring a civil antitrust lawsuit for 
conspiracy and restraint of trade under section 2 of the 
Sherman Antitrust Act. A civil antitrust lawsuit brought by the 
Government is heard by a Federal judge. There is no jury. The 
judge in the case has powers to grant equitable relief. That is 
a start.
    If you bring one criminal prosecution against a sanctioning 
body for phony ratings, I suspect that the other ratings will 
get cleaned up in a hurry, because they do not want to be 
criminally prosecuted, and in terms of the judgment against the 
WBC by Rocchigiani you can attach the sanctioning fees for any 
WBC fight in the United States, and the judgment starts to get 
filled then, but there is no will that I have seen on behalf of 
the Federal Government to enforce the laws that Congress has 
passed, and the State athletic commissions certainly are not 
going to do it, because some of them do not know what is going 
on, some of them are corrupt, and all of them are afraid that 
if they do the right thing, big fights will simply go some 
place else.
    A State knows that if they seek to enjoin the payment of 
sanctioning fees, then the big fights just will not come to 
that State. It has to be done on a national level across the 
board so there is no sanctuary, and you saw the sanctuary at 
work with Tyson/Lewis. Nevada said no, and you had States 
lining up to put the fight on, and they will do it again.
    The Chairman. Mr. Pannella, Mr. Hauser raises the point 
that there is another fight that took place that I am 
incredibly embarrassed about where Cesar Chavez was prevented 
from fighting in Nevada, so they shopped around and he fought 
Kostya Tszyu in Phoenix, Arizona and was beaten insensible by 
Mr. Tszyu, as everybody knew he would be, and yet the Arizona 
Boxing Commission, my own State, sanctioned the fight after 
Nevada had not. What do you do about that besides passing a 
Federal law, Mr. Pannella?
    Mr. Pannella. Well, Senator McCain, first of all, I think 
it was inappropriate for the Arizona Boxing Commission to not 
follow the lead and recommendation of Nevada. In that case and 
in other cases, there have been State commissions that have not 
followed the lead of other States.
    The Chairman. So what do we do?
    Mr. Pannella. The United States Boxing Administration is 
what we have to do. We have no enforcement authority as an ABC 
body, and Mr. Hauser, we have no enforcement authority. We need 
it.
    Mr. Hauser. And no budget, really.
    Mr. Pannella. If you have problems with some State 
commissions, I respect that, but we have no enforcement 
authority. The United States Boxing Administration will enable 
us to actually force those commissions that are not abiding, as 
well as to ensure the minimum standards that are necessary for 
the sport. Many State commissions in my opinion, and tribal 
commissions, do have high standards, but it is a travesty, and 
it is embarrassing, as far as I am personally concerned, that 
that happened.
    The Chairman. Thank you. Mr. Hauser, if you could get me 
some additional information on the New York State Athletic 
Commission, I would very much appreciate it. I am sure you have 
written about it.
    Mr. Hauser. Senator, I have brought with me a book which 
has six or seven columns on the New York State Athletic 
Commission, and I will be happy to give it to you at the close 
of this hearing.
    The Chairman. I am joined by my friend and fellow boxing 
advocate, Senator Dorgan of the State of North Dakota which, 
its only claim to fame is that Virgil Hill is from there. Other 
than that, I know of no redeeming qualities.
    [Laughter.]
    Mr. Sugar. And here I thought their claim to fame was that 
Lawrence Welk was from there.
    The Chairman. But I want to thank Senator Dorgan for all 
that he has done in helping on this issue, and his commitment, 
and I just had a couple more questions, and please chime in, 
Mr. Hopkins. I know you want to speak, but when you do, I would 
like for you to also, besides your comment, is tell us why you 
think there has never been a fight between you and Roy Jones, 
Jr.
    Mr. Hopkins. That would be the quickest thing I have 
answered all day. He is scared.
    [Laughter.]
    Mr. Hopkins. He is scared. I mean, yes, money plays a role. 
Roy knows he is going to have to fight Bernard Hopkins. We are 
in two different weight classes. I am a middleweight, and 
always been since 1988-1989. I have got the Marvin Hagler 
mentality. I never blow up, never go down.
    Roy is a light heavyweight, 160, a light heavyweight. You 
are talking a lot of pounds. You are talking about health and 
safety. You are fighting a good big man who would beat a good 
little man any day, and when you are talking two weight classes 
apart--you know, Roy is not going to come down to 160, and I 
would not do that. It would not be fair. Roy does not want to 
come down to 68 or 67. He wants to fight probably, last time I 
heard it was 71, 72.
    Then it is the dollars. Roy wants 80/20, then he wants 60/
40, then he might not want the gloves, the gloves might not be 
his, he might want to wear Reds, I might want to wear Grant. He 
might want to fight here, I might want to fight there.
    It is a whole bunch of things, and it is egos on both 
sides. The fight will happen as long as he does not lose to a 
guy who is not a heavyweight, because then people will say, 
well, he should not have fought John Ruiz. As long as Bernard 
Hopkins does not lose March 29, that rivalry is building up. I 
cannot walk anywhere in any city without anybody saying, why 
won't Roy fight you, why don't you all do 50-50. Roy thinks 
more of me. He goes to make a rap song. I thank him for the 
promotion he gives me, but it will happen as long as we do what 
we have got to do.
    But I want to add one little quick thing. You say, what can 
we do about a fighter, or a situation where you run from one 
State to another. Get one commission. I mean, I am going to 
blow Greg Serb's horn in Pennsylvania I think he is doing a 
great job. You heard of Greg Serb?
    The Chairman. A fine man, yes.
    Mr. Hopkins. He working in Harrisburg. He has been doing 
great. I have seen him turn down fights with guys with 15 and 
30, fighting an undefeated fighter.
    One commission, which means that--and you know what it 
means. But Arizona will not be able to do what they did on a 
high-level marquee fight or a low-level fight, because you 
cannot run from New York to Philadelphia and get different 
results. The unity is not there. You get one person--I do not 
know whether it is going to be one person with all this power, 
whether it is going to be a panel of three or a panel of 10, or 
a panel of five, and you have one commission that commissions 
every State that deals with boxing in every country, or every 
city, or every commission. Now, if something happens, he cannot 
run here, the promoter cannot run there, the fighter cannot 
run--it works both ends. One commission. To me, that is easy.
    The Chairman. I got you. Thank you.
    Mr. Greenburg, in a piece written by Mr. Hauser in 
secondsout.com entitled, The State of Boxing, Mr. Hauser 
concludes that, quote, Ross Greenburg, Jay Larkins, and Bob 
Yalin each acknowledged that their fiduciary duty to their 
respective networks far outweighs any fiduciary duty that might 
exist with regard to the good of boxing, and that belief 
extends to calls that the networks help clean up boxing. Would 
you like to respond?
    And let me give you one other quote. Mr. Hauser also quotes 
you as saying, quote, our job as network executives is to put 
together the best fights, and the fights that the public wants. 
There is no reason for us to obsess over the sanctioning bodies 
and State athletic commissions. Please respond.
    Mr. Greenburg. On both of those, first of all, boxing is 
part of our bloodstream at HBO. I have been there 25 years. It 
is ingrained in all of us to protect the health, safety, and 
the dominance of the sport on the American landscape, and so 
not only have I never said that to Tom Hauser, but I would 
violently disagree that if either of those other two gentlemen 
believe that, then they are completely wrong.
    On the second quote, I would just say that sanctioning 
organizations do exist. We actually, on our broadcast, never 
acknowledge the WBA, the WBC, or the IBF. We have determined 
that the fighters and promoters can decide whether they think 
that the legitimate mandatory is indeed legitimate. If they 
want to throw away a belt, if they decide that they do not want 
to be the WBC champion because that organization is forcing 
them to fight an inferior fighter, even though he is number 
one, we willingly pay the same profits for Bernard Hopkins to 
defend his people's undisputed middleweight championship of the 
world.
    Even if he throws away all three belts, in our mind he is 
still the undisputed middleweight champion of the world, so in 
our minds. I agree wholeheartedly with not only Bernard but 
everyone else on this panel that we do need a Federal 
commission to step in and regulate everyone so that if the 
sanctioning organizations from overseas are doing wrong by our 
sport, that they can be punished, that if promoters are doing 
wrong by our sport, they can be punished, if a manager is doing 
wrong by his fighter, he should be punished.
    So we believe in the health and well-being of this sport 
now and forever. We have too much invested in it, not only 
financially, but emotionally. My job hinges on the success and 
the dominance of this sport across America. I have seen it 
crater over the last 20 years, when we were doing Hearns/
Leonard in 1981, to now where the state of boxing is today. We 
need superstars like Bernard Hopkins. We want him outspoken.
    We have broadcasters on our network that speak to the ills 
of the sport every single time we do a broadcast, and we 
receive a lot of condemnation from not only promoters, but 
managers and commissions and everyone else, because we are so 
outspoken to try to get to this sport and clean it up. That is 
HBO's version of boxing.
    The Chairman. Bert, is the Mickey Ward/Arturo Gatti, which 
was a nontitle fight an anomaly, or do you have to have a title 
associated with it, and second of all, is boxing getting worse?
    Mr. Sugar. I do not know the answer to the second question, 
unfortunately. Boxing is getting worse only because I am 
getting older and everything was better when I was a kid, but I 
think there are many good things about boxing today, and they 
are savable and salvageable by something good happening.
    Mickey Ward and Arturo Gatti, yes, was a unique fight in 
many ways. It was a throwback fight to yesteryear in several 
ways--an Italian versus an Irishman. There is a man up in 
Washington in an old-age home named Jimmy McLarnin, who was a 
welterweight titlist back in the 1930s. He is 96. He fought 
against, as an Irishman, Tony Canzoneri, an Italian, and they 
both fought against Barney Ross, a Jewish fighter, and it was a 
tripartite.
    Ward and Gatti was a throwback fight in our generation, so 
yes, it does not need to be, by the bye, a championship fight. 
That is the icing on the dessert, a championship, because then 
somebody in East Overshoe will say, ``Mabel, I cannot come to 
dinner or go to bed now because they have got a championship 
fight on. I do not know who in the hell is fighting, but it is 
a championship fight.''
    Ward/Gatti stood on its own. It depends, as Ross said, in 
putting together the best fights. Yes, because they are at the 
highest level, championship fights are most times the best 
fights. But you had another nontitle fight recently, Marco 
Antonio Barrera, who threw away his title, said I do not want 
to be champion, I am content being the best, and he fights Eric 
Morales, and I do not know one person who did not tune that in 
because it was not, quote-unquote, for a championship.
    The Chairman. Thank you.
    Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Thank you Mr. Chairman. I was at an Energy 
Committee and Judiciary Committee hearing prior to this, so I 
unable to be here to listen to the testimony. Incidentally, 
since this is not televised live, I will not correct your 
limited knowledge of North Dakota.
    [Laughter.]
    Senator Dorgan. I might be required to do so if more people 
had heard it, but I will defer at the moment.
    Mr. Sugar, your knowledge from Lawrence Welk to boxing is 
expansive----
    Mr. Sugar. And Angie Dickinson. Angie Dickinson, from North 
Dakota.
    Senator Dorgan. Angie Dickinson is from Kulm, North Dakota.
    Mr. Sugar. And Roger Maris. I mean, we can keep going.
    [Laughter.]
    Senator Dorgan. All of that is true, of course.
    Let me ask a couple of questions. I was at a hearing some 
years ago when Sammy ``the Bull'' Gravano testified under armed 
guard, under protection. He was then in the witness protection 
program. They brought him in, with a lot of security around 
this building that day, and he said----
    The Chairman. He has since done very well out in Arizona.
    [Laughter.]
    Mr. Sugar. You are claiming him like he is claiming 
Lawrence Welk?
    [Laughter.]
    Senator Dorgan. He said that at one point, they apparently 
had some interest in a European heavyweight. They wanted to 
line him up to fight Reynaldo Snipes, but they needed Reynaldo 
to get a little better ranking, because they were going to have 
Reynaldo Snipes take a dive, and since their guy was going to 
win, they wanted to fight against a high-ranked fighter.
    So he said that John Gotti sent him to Las Vegas to meet 
with one of the sanctioning body folks. He told us who it was, 
and he told us what it cost to move Reynaldo Snipes, I think it 
was from rank number 9 to number 7. It was going to be $10,000, 
and he explained to the people, he said, well, I am here--you 
know, this is John Gotti's request. Well, he said, then we do 
it for $5,000.
    He told us this story, I thought to myself, can the system 
be that corrupt? Give me your impression. Does that go on 
today? Is there somebody flying around the country today making 
a payment to someone in one of the sanctioning bodies to get 
someone ranked two or three steps higher?
    Mr. Sugar. I think if you read the transcript of the Bobby 
Lee case in the IBF, it happens today, yes. I mean, they do not 
have to infer, or refer either way to John Gotti's name. They 
just have to show up with dead presidents in their hands. You 
can say, Benjamin Franklin, U.S. Grant. It does not have to be 
John Gotti.
    And so it has happened, and the Bobby Lee IBF case was 
somehow, someway, somewhere predicated on that same principle, 
Senator.
    Senator Dorgan. Mr. Greenburg, if that is true, if that 
happens today, and if the rankings really are not on the level, 
they can be bought in certain circumstances, why aren't the two 
or three or four largest beneficiaries from a revenue 
standpoint of these either carnivals or athletic events, 
depending upon which one you are seeing, including the networks 
and HBO, why are they not pushing very, very hard to say, look, 
let us clean this up, we put the prestige and the energy of our 
organization behind it?
    Both the chairman and I have been at this a long while. I 
first introduced with Pat Williams, and now the Governor of New 
Mexico, Bill Richardson and others in the House, and Senator 
McCain then, and we have introduced legislation 15, 20 years 
ago. I have never had someone from an organization like yours 
communicate with me to say, you really need to do this, we 
really support this. Why is there no energy in that direction?
    Mr. Greenburg. Well, first of all, I am here.
    Senator Dorgan. Okay. And I appreciate that.
    Mr. Greenburg. I am here for that very reason. I believe in 
this. Senator McCain and I have known each other quite a while, 
and we have worked together. He knows he has my support, and I 
have been down to meet with the Senator, and Senator Reid, and 
Senator Ensign, and we have tried as best we can, even though 
we are the bank, and a powerful one at that, to try to help 
legislate some policy, and this policy would legislate boxing 
in a good way to try to clean up the sport.
    I think the IBF situation is interesting, because we have 
absolutely no involvement with any of these commissions, and 
these sanctioning organizations, to know what is going on 
behind the scenes between the promoters and the sanctioning 
organizations. But I would venture to say that that one IBF 
case, which was a while ago, has really stopped a lot of the 
corruption that we are speaking about now, and if you are a 
promoter now, you had better have second thoughts of trying to 
bribe sanctioning organizations for upticking those rankings.
    I think that that sent a very serious message, and it 
speaks to what Tom Hauser keeps saying, which is, if we keep 
sending that kind of message, you bet it is going to clean it 
up, and that is why I am here, and I am committed to this 
legislation. I think it will do a lot to benefit this sport. We 
are going to stay involved.
    I am here now. If you guys want to do this again in a 
month, I will be back, and I will continue to fight for this 
because we believe in it at HBO, so I cannot speak for other 
networks. I cannot speak for anyone in my industry, but here is 
one big pocketbook that is ready to stand up and speak out the 
way Bernard Hopkins has spoken out.
    Senator Dorgan. Mr. Hauser, did you want to comment?
    Mr. Hauser. First, I do not think the IBF prosecution made 
that big a difference, because you see the WBA doing the same 
thing again with its rankings. We do not have tapes of money 
being handed to the people who run the WBA. We do know that 
Shane Mosley, who is one of the best fighters in the world in 
any weight class, was not ranked in any weight division by the 
WBA for several months. There is no logical reason for that.
    Also, I want to get back to one thing Mr. Greenburg said 
earlier regarding the statements from the article that Senator 
McCain quoted, and that is, I do believe that is an accurate 
statement of the views that Mr. Greenburg expressed to me, and 
this is the first time that Mr. Greenburg or anybody else at 
HBO has questioned its accuracy to me, and Mr. Greenburg just 
said--and I believe you will agree I am quoting you 
accurately--we are the bank, and a powerful one at that.
    And with that in mind, I think one very constructive step 
would be for HBO to make public the license fees that it pays 
for fights. That is something that Major League Baseball does, 
the National Football League does. We know what the network 
pays for the rights for all the other sports, whether it is 
baseball, football, basketball, golf, and if the fighters and 
their camps know what the license fees are, the same way the 
Major League Baseball Players Association bases its 
negotiations in large part on the TV deals, if the fighters and 
their camps know what the license fees are, then they are 
better able to gauge whether they are being treated fairly.
    And to take it even one step further, I would like to see 
HBO, Showtime, ESPN, all the TV networks, follow the trail of 
the money to see how much money from a particular fight winds 
up in the fighter's bank account. You have these horrible cases 
of exploitation going back to Tim Witherspoon, where a 1.6-
million-dollar license fee was paid for Witherspoon's services 
to fight Frank Bruno, and $92,000 of that went to Witherspoon, 
and more recently the horrible exploitation of Manny Pacquaio, 
who came from the Philippines and was betrayed by his manager. 
So if you follow the flow of the money, you will make it a lot 
easier for fighters to have honest managers to see that their 
fighters are being fairly treated, and that is something that 
HBO and all the other networks can do.
    Senator Dorgan. I want to ask Mr. Hopkins a question.
    Mr. Sugar, you wanted to comment on that?
    The Chairman. Mr. Greenburg, are you willing to do that?
    Mr. Greenburg. What, answer that?
    The Chairman. Give the licensing fees.
    Mr. Greenburg. That is a tough call. I mean, in our 
multifight agreements with fighters we have a number down on 
that paper, and the fighter himself, if Bernard, Ray Jones, or 
Lennox Lewis, they put their signature on the contract, so in 
that regard, a multifight contract guarantees that the fighter 
understands what the television monies are.
    We do not know what the site monies are. We do not know 
what the sponsorship monies are, so it is hard for us to really 
gauge how much that fighter knows, but in the context of our 
multifights, they know that number.
    As it pertains to nonmultifight fights, it would be very 
difficult, I think, if a Federal governing organization decided 
that they wanted to, like the NFL or the NHL or the NBA, 
disclose what the television revenue is, then we probably would 
be amenable to that, but just like the broadcasters, who do 
not--and my recollection is that they pool all the monies from 
all of those networks, at least in the NFL, and then disclose 
what that number is for the collective bargaining between the 
NFLPA and the NFL, the league itself, in terms of how much 
revenue the players will then get for themselves, but we would 
be surely amenable to that lump sum, so that fighters knew.
    I really cannot tell you down the road what Federal 
legislation will govern, but we will be right there, following 
the rules and regulations set down by that body.
    Mr. Hauser. We read regularly in the paper that ABC/ESPN 
has paid X amount of money for NFL rights.
    Mr. Sugar. I have a problem with all of this. What does 
this do to help boxing, rather than a given fighter? We have 
more important problems than people just basically pulling the 
curtain back to see what is behind it. It satisfies the press. 
We love to write about this.
    Senator Dorgan. The question is exploitation.
    Mr. Sugar. Yes. That is the flow going the other way.
    Mr. Hauser. If Bernard Hopkins knows.
    Mr. Sugar. I know about that, but it is always on the 
Nevada Athletic Commission's amount, not TV's, but total.
    Mr. Hopkins. Bert Sugar is very knowledgeable, but it is 
absolutely incorrect, because as Mr. Ross Greenburg here will 
bear witness to, is that I remember a situation a year ago, 
right before the Trinidad fight, where Don King, Ross 
Greenburg, and myself were down in New York, in HBO's building, 
and I wanted to know because I happen to be more advanced than 
most of us that do not know how to answer that.
    What is the license fee that HBO--because I am not a signed 
HBO exclusive fighter. I am, more or less, if Showtime were to 
offer something, fine. If HBO were to offer something, fine, 
and Don went crazy when my attorney, Arnold Joseph and I, 
asked, you want us to fight, say Roy, you want us to fight, say 
Trinidad again, or de la Hoya, what is the license fee that HBO 
is paying DK, Don King Productions so I can be able to 
negotiate in the light and not the dark.
    I have to, and most fighters have to have their own entity, 
their own manager, and hopefully that manager is not with a 
promoter, the consultant or anyone, to negotiate from a 
promoter who is supposed to negotiate from the networks for the 
fighter, so if the fighter does not have his own group of 
people that are honest to negotiate his worth, then the 
promoter would dictate that he only got but $2 million when he 
got 8.
    I mentioned Tim Witherspoon, okay. Now, TV, if TV makes it 
clear, if it is regulation makes it clear, rules that make it 
law like baseball, football, hockey, and any other sport, or 
golf, that whatever the network is paying, ABC, HBO, Showtime, 
then I can be able to deal in good faith across the board, 
knowing that HBO gave Don $15 million or $20 million, or $30 
million for a four-fight package for Bernard Hopkins' services. 
Now I can look at that and say, this is what I am willing to do 
this for. It is not there, Mr. McCain. You are negotiating with 
a hand that is not even flipped over.
    The Chairman. You never got the information you asked for?
    Mr. Hopkins. Absolutely not.
    Mr. Greenburg. With me?
    Mr. Hopkins. No, Don went crazy, because I wanted to know 
what they were paying Don while Don was there, not behind his 
back on the phone. I wanted to know, and HBO, all due respect 
in defense of them, Don is barking, maybe threatening to sue or 
whatever, that you are interfering with my fighter, because I 
am doing his business, I have exclusive rights to negotiate, so 
HBO is hog-tied. They are like, if we tell what it is, then we 
might have a problem, we might have this, and they have to make 
sure with the promoter--they do not have a relationship with 
the fighters, the majority of them.
    I was reading in the USAToday paper today, I am pretty sure 
once I make this statement somebody is going to run out and see 
if it is in there. Not that my credibility is tarnished, but I 
just want to let you know that Jay Larkins from Showtime did 
something with a lot of heat and press--to show you how much 
power TV has, they are the bank, they are the vault, they 
pulled the fight off--and Tom Hauser can bear witness to this. 
Jay Larkins for Showtime, the honcho over there who calls the 
shots, he pulled the fight that was so mismatched. That is the 
power that TV has.
    They told Art Poluto, the promoter of the fighter that was 
the upcoming star, whatever, fighting a guy that maybe had 30 
or 20-something losses--in today's paper today--he snatched the 
fight. He said, I will not do this fight, I will not pay for 
this fight. That is the power that the networks have.
    Like I said, again, Don King, Bob Arum, the Duvas, none of 
the big-time promoters do not go to their own bank account and 
pay de la Hoya $10 million out of Bob Arum's bank account. They 
go to TV and negotiate from TV, so who has the power, the 
promoter, or TV? The bank. All of this is about money, greed, 
corruption, exploitation, but it boils down to one thing, the 
Benjamins. So who has the Benjamins? TV.
    It is no more back in the day where you get the money from 
the gate. It is no more in the 1930s or the 1940s, Mr. McCain, 
when you based and predicate everything on how many people show 
up, we hope it does not rain, we hope we do not have a 
snowstorm, nobody is going to come out and watch it. When TV 
became involved in boxing, it took it to another level.
    The Sammy the Bulls, the John Gottis, all kinds of 
characters in this business, so maybe the John Gottis and the 
Sammy the Bulls are not around now, but are replaced. It is 
just modernized and more dressed up to be the same thing. If it 
is a cat, smells like a cat, and growls like a cat, that is 
what it is. It is the same thing.
    Senator Dorgan. Mr. Chairman, I have only asked a few 
questions so far, and I am doing pretty well, but I am here 
actually in shape to go to 12 rounds here in these questions. 
If I might ask one more question, I do want to ask you a 
question, Mr. Hopkins. Senator McCain and I work in a business 
where we actually are practiced and professional at avoiding a 
direct question we do not want to answer. We both know how to 
do that and do it--well, Senator McCain perhaps less well than 
I, but I assure you, it is a skill that allows you to get to 
this position that you must possess.
    Mr. Hopkins. Well, I have been in court a couple of times. 
I have learned that know that, too.
    [Laughter.]
    Senator Dorgan. You are a wonderful boxer, one of the best 
in the world. I have watched you box, and you are incredible. 
Senator McCain asked you a direct question, and he did not 
touch you with it because he was asking about Roy Jones, and 
you said Roy Jones was scared of you. Of course, we know that 
is not the case. You knew that was not the case when you 
answered. Tell me why----
    Mr. Hopkins. I have been in a couple of courts. I know how 
to answer questions.
    Senator Dorgan. But we all know that is hyperbole. Tell me 
why, in the current circumstances, why has a Hopkins-Jones 
fight not happened? One would expect it to have happened. You 
both are at the top of the boxing world.
    Mr. Hopkins. We are both in our 30s.
    Senator Dorgan. He is not afraid of you, you are not afraid 
of him. Obviously, you would both like to see the contest. Why 
has it not happened?
    Mr. Hopkins. One reason is money. The middleweight 
tournament was based and predicated--Ross can speak if he wants 
to about this, and this was all about winning the tournament. 
The wrong guy won the tournament, sir. Trinidad did not win the 
tournament. Bernard messed up an economy that was so built up 
on Trinidad and Roy, and that was my calling. I was supposed to 
have been executed that night, but the wrong guy won. If 
Trinidad would have won--he had the Latin backing--it would 
have been great. Roy Jones, they were building up they were 
talking about it.
    With all due respect, you have got two big writers here, 
they will tell you, they were talking about Roy and Trinidad 
before they even fought. The wrong guy won, first of all.
    Second, Roy Jones is finding out that he is not the only 
smart businessman in boxing. Bernard Hopkins also is a 
businessman, a boxer second, and when Roy Jones, Jr. backed out 
of his fight and went out of the tournament, he made it a 
business issue to ease out of it, and some bought it and some 
did not, because everybody knows that Bernard Hopkins is worthy 
and paid his dues.
    When Roy was feeding off the mandatory fights, people did 
not--HBO will tell you, they are not proud of the ratings they 
got from some of the Roy Jones fights in the last 4 or 5 years, 
so I took a risk fighting Trinidad, and even the money proved 
my point, proved it well.
    Now Roy Jones and Hopkins, well, Roy Jones wants to take 
the majority of the money because he feels he has a victory 
over me in 1993 in RFK Stadium in D.C. under the Riddick Bowe 
and Jessie Ferguson card. Well, he is holding that against me 
to today. Roy said he has home court advantage because he has 
beat me over 9 years ago, and I said Roy Jones is caught 
between two sports. It is not basketball. There is no home 
court advantage because you did something 9 years ago. What 
have you done in the last 5 or 6 years to say that you want 80 
percent or 60 percent of the money?
    It is about money. It is about Roy knowing he is going to 
fight a tough fight, and I am just starting to break through to 
get the rewards of about my 15-year tender in this sport, and I 
have a lot to prove when I fight a Roy or anybody else.
    I think an Oscar de la Hoya fight--which is, 6 pounds 
separate us--is bigger than a me and Roy Jones fight, and that 
is my feelings on it. Roy is a guy I want to fight, but Roy is 
175. He is fighting at 190, not because he has got to put on 
weight. He walks around close to 190, 195. I walk around at 
best 6 or 7 pounds above my weight.
    Everybody credits me, my enemies in the sport credit me for 
my well, well-known discipline for staying in shape, even in 
between fights, so I would rather make an Oscar and a Hopkins 
fight. Oscar is 154, Bernard Hopkins is 160. That is easy to 
meet. It is bigger money.
    You always say, you say about the Irish and the Italians, 
such and such. Well, you have got Oscar de la Hoya, and you 
have a Bernard Hopkins. Oscar has a Mexican following. He just 
beat Fernando Vargas, and we only separate 5 or 6 pounds. Why 
aren't the media beating the drums to make that happen? No, 
because they want to beat the drums and say, fight Roy, 
Bernard, at any expense. I am not at 175 pounds. I know my 
limit. I am successful for 14 years as a middleweight. Why 
would I get out of my habitat to satisfy Roy Jones, because he 
is Roy Jones, and I did not beat the biggest guy in boxing, 
which is Felix Trinidad, who had Roy beat in 3 years of being 
pound-for-pound.
    Money is the issue. Roy does not want to fight Bernard 
Hopkins unless HBO or someone with some dictations to Roy to 
say, you have got to fight Bernard Hopkins 50-50--I even went 
as far as saying, 60-40, winner takes 60, loser takes 40, make 
it interesting. We will sell more tickets.
    Mr. Sugar. One quick note, because I just want to add one 
little story to what Bernard said to agree with him probably 
more than he agrees with me sometimes, but he said he upset the 
apple cart that night in September of 2000 when he beat 
Trinidad. There was a Sugar Ray Robinson trophy to be given out 
to the winner of this four-champion tournament. Don King 
afterwards, greeting Bernard Hopkins to the podium, said that 
someone had left the building with the key in their pocket, and 
they could not get the trophy, they would have it for him 
Monday. It had already been inscribed with Felix Trinidad's 
name on it.
    Mr. Hopkins. They already had his name on it.
    [Laughter.]
    Senator Dorgan. Well, Mr. Chairman, this has been a most 
interesting panel. I really look forward to working with you 
this year and in this Congress.
    The Chairman. We are going to mark up this bill at the next 
markup within a few weeks, and then see if we cannot get some 
reservations that people have about--the whole problem is what 
degree HBO-Showtime are involved in this legislation, and we 
are trying to get it resolved, and I hope we can move forward.
    And Mr. Pannella, I am pleased to know that--it may not be 
a unanimous opinion, but I am glad that some of the State 
boxing commissioners are in favor of this. We intend the 
legislation not to micromanage the State boxing commissions, 
but I think you and I understand the obvious problems of not 
having some kind of Federal oversight of the entire sport.
    Go ahead if you want.
    Mr. Pannella. Thank you, Senator McCain.
    You know, I am hearing all this conversation. You talk 
about the IBF and the problem many years ago with Bobby Lee. I 
am thinking to myself, the individual who at one time had my 
job in Virginia was the guy who actually had money in his sock 
on the highway up in New York and made the deal. That was an 
individual who is in a position similar to mine in another 
State, and I am just thinking about that, and my attorney 
always uses the word, firewall. We have got to create a 
firewall between the commissions, the sanctioning bodies, 
everybody. We must be above reproach, and in the Federal Boxing 
Act of 1996, prior to that, we had members of commissions who 
were members of sanctioning bodies. It happened all over.
    It is changing. It needs to take more, and the United 
States Boxing Administration will help to build that firewall.
    The Chairman. Thank you.
    Well, I have learned from this hearing, 1) that we need to 
try to get enforcement of existing laws. It seems to me that is 
a reasonable thing for citizens to expect, enforcement of 
existing law, including contacting the FTC again. They have a 
new commissioner, and new commissions, and maybe also perhaps 
trying to light a fire under the Justice Department, because 
there have been some egregious violations of the law; and 
second of all, to try to get this done; and third of all, keep 
the focus and attention on this issue until such time as there 
is some measurable improvement.
    Mr. Hopkins, you have heard me say before the reason why 
Senator Dorgan and I love this sport is for a variety of 
reasons, including, it provides the only opportunity for some 
people to achieve great success in life, and it seems to me we 
should have assured them of a level playing field, as is 
generally the case in all other professional sports in America, 
with the exception of the sport of boxing.
    So I would be glad to hear any final comments that the 
witnesses may have, beginning with you, Mr. Pannella, or did 
you already just do that?
    Mr. Pannella. I just want to say that the work that is 
going on here, the bravery of the boxer Bernard Hopkins, and 
the interest that Senator McCain and Senator Dorgan have is 
very much appreciated. We have to move forward. Again, there 
have been positive changes made, and the Federal boxing laws in 
1996 since then have made those changes. They need to continue, 
and I believe the public will be best served by the United 
States Boxing Administration, as will the boxers.
    Thank you.
    The Chairman. Bert.
    Mr. Sugar. Senator McCain, Senator Dorgan, I applaud what 
you are doing. I just hope, yes, fervently, that you put teeth 
in it and we go forward, because I think therein lies the whole 
answer. We can have about 20 more of these panels. If we do not 
get teeth in it, it ain't going to work, and I wish you 
Godspeed. Let us get it done. We have got people out there who 
do not take money under the table, they take it around the 
table. I have even seen them take the table. We have got to 
take the initiative. I leave it to you.
    The Chairman. Thank you. You are always welcome here, Mr. 
Sugar. We find you not only enlightening, but entertaining.
    Mr. Hauser.
    Mr. Hauser. I will just quote what you said, Senator, and I 
believe I am quoting accurately. We should light a fire under 
the Justice Department, because there have been some egregious 
violations of the law.
    The Chairman. Thank you. Mr. Greenburg, while you answer, 
let me just say HBO and other cable service providers have been 
criticized for acting like promoters. Many in the boxing 
industry argue, and the witnesses have today, that HBO controls 
boxing, HBO is a promoter, and thus should be regulated as 
such. How do you respond to that in your final comments here?
    Mr. Greenburg. Well, first of all, power does not corrupt. 
People with corruption in their bloodstream corrupt. We are a 
bank. We are powerful. We enjoy this sport. We live by this 
sport. We like to entertain our subscribers with the sport of 
boxing. That is our job. We are not just suits.
    I guess many times--I heard Bernard loud and clear--we have 
looked out for the betterment of boxers like Bernard our entire 
business life, and will continue to do that. As we look ahead 
into the future, we believe at HBO, like both of you Senators, 
that this kind of Federal regulation can work and clean up the 
sport not only for the fighters, but for all the managers and 
promoters and sanctioning organizations, and all the other 
bodies out there that contribute, casinos and the like, to this 
sport's betterment.
    We are not promoters. We televise the sport of boxing. We 
enter into agreements with boxers and with promoters in order 
to televise fights. We will go, and we will continue to do 
that, and we will do that with your cooperation, and we will 
hopefully--hopefully, in the long term, be standing alongside 
the great fighters like Bernard Hopkins and Roy Jones and 
Lennox Lewis and Sugar Ray Leonard and Marvin Hagler and Mike 
Tyson in his best days as a heavyweight to lift the sport, to 
help give it its profile, to help give it its electricity to 
the American viewer, and that is really what this is all about.
    I am here to support both of you, Senators, as you go into 
the future and try to enact a bill, and will be standing right 
by your side, because no one wants this sport to thrive more 
than HBO.
    The Chairman. Mr. Hopkins, thank you for taking time from 
your training to be here today. We appreciate it very much.
    Mr. Hopkins. Thanks. I would like to thank all of the 
Senators. I would like to thank everyone involved in putting 
this together, and also I would like to put an invitation out 
that any time you need Bernard Hopkins, any time you need 
someone in the boxing part as an athlete, being undisputed, I 
have a lot of influence on young fighters, and even the ones on 
top, and who are trying to get on top, and the ones on the 
bottom, I am willing to be here to spearhead, to be the fighter 
who speaks out without backing out of something that is very 
important to me even after my career is over.
    I also have to promote my fight, March 29 in Philadelphia.
    The Chairman. Is that Pay-Per View?
    Mr. Hopkins. That is HBO--Ross Greenburg is right here, so 
it's cool----
    [Laughter.]
    Mr. Hopkins. That--as we speak, and that is HBO, and that 
is my--I named it Sweet 16. Any woman or young lady that is 
past 16 understands how, when they turn 16, they feel so proud, 
and it was great. This is my 16th defense as a champion, and 
everybody at this panel, at this desk here, can know that very 
often, very few fighters achieve that in the same weight class. 
In the same weight class.
    So again, thank you for giving me the time, Senator McCain 
and--I forgot your name. I have had 42 fights, and every now 
and then--Senator Dorgan.
    [Laughter.]
    Senator Dorgan. If I am ever ranked number 1, you will know 
me.
    [Laughter.]
    Mr. Hopkins. Okay. Any time you need me, feel free. I am at 
your call. I am here to help, as a fighter I am here to help, 
and God forbid if I do not keep the title another year or two, 
because I am looking to retire by 40. I am 38. I have got a 3-
year-old daughter that I want to raise and be able to talk, and 
maybe go talk to her principal and the principal understands 
me, so I am considering all that.
    Thanks for having me here, and I hope everyone like Tom 
Hauser and Bert Sugar, they have a lot of influence on boxing, 
too, they write about it. People listen to them. Believe it or 
not, people listen to them, and I am glad they are here saying 
things I agree with, and they agree with me, so thank you all 
for having me here.
    The Chairman. Well, thank you, and we appreciate that we 
gave you the opportunity for that plug for your upcoming fight, 
and we wish you every success. You did not have to mention HBO, 
though, they do enough. But thank you very much.
    Senator Dorgan. Mr. Chairman, can I just say, the last 
hearing we held, Roy Jones, Jr. actually testified at that 
hearing, and I might say that you remind me a lot of him, or he 
reminds me a lot of you. I take great heart from the fact that 
we have two very articulate, very passionate fighters, 
champions who care so much about this sport and want to make it 
better.
    I was impressed when Roy Jones, Jr. came, and I was very 
impressed today, Mr. Hopkins.
    Mr. Hopkins. We do have something in common. His birthday 
is January 16th, mine is the 15th. Maybe it is the personality.
    The Chairman. I think the other thing you have is 
incredible skills, which I think you are probably the two best 
fighters in America.
    Mr. Hopkins. Well, call him up and tell him that so I can 
get this $10 million and maybe retire early.
    The Chairman. I give up. This hearing is adjourned.
    [Whereupon, at 11:15 a.m., the Committee adjourned.]

                                  <all>
</pre></body></html>
